      Semiannual
        Report to
        Congress
APRIL 1 – SEPTEMBER 30, 2007




                 Office of Inspector General
                 U.S. Department of Transportation
ii	   Semiannual Report to Congress
Table of Contents

From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
Audits and Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  Aviation and Special Programs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  In Focus: Challenges Remain To Improve Airline Customer Service and
	      Minimize Delays  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  Surface and Maritime Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
  In Focus: OIG Completes Initial Audit of NAFTA Cross-Border Trucking
	      Demonstration Project .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 15
  Competition and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 29
  Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
  Department-Wide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
Other Accomplishments  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41
Work Planned and in Progress  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
    Aviation and Special Programs . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                          43
    Surface and Maritime Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                              46
    Competition and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                      48
    Financial and Information Technology . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                        49
Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 53
    Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                      53
    Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .   54
    Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                 54
    OIG Reports with Recommendations that Questioned Costs  . .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                              55
    OIG Reports with Recommendations that Funds Be Put to Better Use  . .  .  .  .  .  .                                                                                                            56
    OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .                                                                                                                 57
    Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                              58
    OIG Published Reports  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                               59
    Other Audit Work Products  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                      65
    OIG Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                              66
    Status of Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                             68
    Application of Audit Project Hours by Operating Administration  .  .  .  .  .  .  .  .  .  .                                                                                                    71
    Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                72




                                                                                                                                                                                                                 Photo Courtesy of SLSDC
    Judicial and Administrative Actions  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                  72
    Profile of All Pending Investigations  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                73
    Application of Investigative Project Hours by Priority Area  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                                                     73
    Application of Investigative Project Hours by Operating Administration  .  .  .  .                                                                                                              74
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 75
Contacts  . .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77
Abbreviations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 78




		                                                                                                                                                                                                       	 iii
iv	 Semiannual Report to Congress
                               From the Inspector General


I
    am pleased to present the Department of Transportation Office of Inspector General’s Semiannual
    Report to Congress for the 6-month period ending September 30, 2007. I commend the dedicated
    efforts of DOT OIG staff in promoting the economy and efficiency of DOT programs and operations
and in preventing, detecting, and deterring fraud, waste and abuse. The audits and investigations
highlighted in this report clearly reflect the breadth and quality of our work, as well as the value our
products and services bring to DOT, Congress and the public.

Our audit activities addressed such issues as improving airline customer service, assessing DOT
preparations for granting Mexican trucks the authority to operate in the U.S., quantifying the growth
in highway construction and maintenance costs, and identifying information security weaknesses.
Our investigative activities involved matters as diverse as selling fraudulent aircraft parts, falsifying
airman medical certificates, rigging bids and falsifying records on highway projects, using substandard
construction materials, and illegally transporting hazardous materials.

This semiannual period culminated with the issuance of 38 audit reports and 95 recommendations
having a financial impact totaling about $38,275,000. In addition, our investigative work resulted in
64 convictions and a total of $122,311,180 in fines, restitutions and recoveries We also testified before
Congress on 14 occasions primarily on the safety of our nation’s transportation system, including aviation,
highway, motor carrier, and railroad safety.

I would also like to express my gratitude to Secretary Peters, Deputy Secretary Barrett, the modal
administrators, and Members and staff of Congress for their support during the past six months. DOT
OIG will continue to work with all our stakeholders to find solutions to complex transportation issues and
ensure that the American taxpayers’ dollars expended by DOT are well-spent and well-managed.




Calvin L. Scovel III
Inspector General




		                                                                        Letter from the Inspector General	   v
vi	 Semiannual Report to Congress
                                                                                       Audits and Investigations

Aviation and Special Programs




in focus: Challenges Remain To Improve Airline Customer Service and
	Minimize Delays



F
      light delays and cancellations continue to
      rise and remain a major source of air traveler                                   Figure 1. Percent of Flights Delayed, Cancelled,
                                                                                             or Diverted for Years 2000 to 2007
      dissatisfaction with airline customer service.
This is further compounded by reduced capacity                                         30% 27.4%                                                   27.8%
and increased demand. With more seats filled,                                                                                              24.6%
                                                                                       25%          22.6%                          22.6%
air carriers have fewer options to accommodate                                                                             21.9%
                                                        Percent of Scheduled Flights




“bumped” passengers from cancelled flights.                                            20%                  17.9% 18.0%
Based on the first 7 months of the year, airlines’                                     15%
on-time performance is at the lowest percentage
(72 percent) recorded in the last 10 years—nearly                                      10%

28 percent of flights were delayed, cancelled, or                                      5%
diverted compared to nearly 25 percent during
                                                                                       0%
the same period in 2006. Figure 1 illustrates the                                            2000    2001    2002   2003   2004    2005     2006   2007*
changes in percent of flights delayed, cancelled, or
diverted from 2000 to 2007.
                                                       *January through July
                                                       Source: BTS Data

                                                       Not only are there more delays, but also longer
                                                       delay durations. Figure 2 illustrates the average


		                                                                                                             Aviation and Special Programs	              1
Audits and Investigations (continued)

flight arrival times from 2000 to 2007. Based on                                    Airline Customer Service Issues Are Not New
the first 7 months of 2007, of those flights arriving
late, passengers experienced a record-breaking                                      Airline customer service first took center stage
average flight arrival delay of 57 minutes, up nearly                               in January 1999, when hundreds of passengers
3 minutes from 2006.                                                                remained in planes on snowbound Detroit
                                                                                    runways for up to 8 and a half hours. After those
                                                                                    events, both the House and Senate considered
               Figure 2. Average Length of Arrival Delays
                         for Years 2000 to 2007                                     whether to enact a “passenger bill of rights.”
          60
                                                                   54.0   56.7      Following hearings after the January 1999 incident,
                52.5                              51.4     52.2
                       49.2            48.9                                         Congress, the Department of Transportation
                              46.8
          45                                                                        (DOT), and the Air Transport Association
                                                                                    (ATA)1 agreed that the air carriers should have an
Minutes




          30                                                                        opportunity to improve their customer service
                                                                                    without legislation. Since 1999, we have conducted
          15                                                                        four audits dealing with airline customer service
                                                                                    at the request of the Congress or the Secretary of
           0                                                                        Transportation.
                2000   2001   2002         2003   2004      2005   2006   2007*

                                                                                    On-Board Delays Last Winter
*January through July                                                               Drew National Attention
Source: BTS Data
                                                                                    This past winter, severe, on-board delays
Also, for the same period, more than 54,000                                         stranded passengers on airport tarmacs for
flights affecting nearly 3.7 million passengers                                     up to 10 and a half hours. The Secretary of
experienced taxi-in and taxi-out times of                                           Transportation expressed serious concerns about
1 to 5 hours, compared to 45,993 flights for all of                                 the airlines’ treatment of passengers during these
peak-year 2000—the previous peak year for delays.                                   delays. In February 2007, she requested that we
The table below shows the number of flights with                                    examine specific incidents of long, on-board delays
on-board tarmac delays of 1 to 5 hours or more                                      and the ATA member airlines’2 contingency plans
from January through July for 2006 and 2007.                                        for addressing these delays. She also requested
                                                                                    that we highlight industry best practices that
Table 1. Number of Flights With Long, On-Board Tarmac                               could help to mitigate these situations and provide
Delays of 1 to 5+ Hours January Through June of 2006                                recommendations on what actions should be taken
and 2007                                                                            to prevent a recurrence of such events.
  Time Period                 2006                2007              % Change
  1-2 Hrs.                     33,438                    47,558            42.23
  2-3 Hrs.                       3,781                    5,213             37.87
                                                                                    1. The Air Transport Association is the trade association for Ameri-
  3-4 Hrs.                           710                  1,025            44.37    ca’s largest air carriers. Its members transport over 90 percent of all
  4-5 Hrs.                           120                   189              57.50   the passenger and cargo traffic in the United States.
  5 or > Hrs.                        27                     44             62.96    2. Alaska Airlines, Aloha Airlines, American Airlines, ATA Airlines,
                                                                                    Continental Airlines, Delta Air Lines, Hawaiian Airlines, JetBlue
  Total:                       38,076                    54,029            41.90    Airways, Midwest Airlines, Northwest Airlines, Southwest Airlines,
                                                                                    United Airlines, and US Airways. During our review, ATA Airlines
  Source: OIG analysis based on BTS data
                                                                                    terminated its membership in ATA.


2	        Semiannual Report to Congress
We issued our report3 in September and found                 General discussed actions that would help to
that (1) the on-board delays that passengers                 improve airline customer service and minimize
endured last winter were largely due to airlines’            long, on‑board delays. The testimonies were based
lack of a system-wide policy to minimize such                on the results of our two most recent reviews on
delays; (2) airlines’ and airports’ customer service         airline customer service, “Follow-Up Review:
contingency plans are still not adequate to handle           Performance of U.S. Airlines in Implementing
these occurrences; (3) some airlines and airports            Selected Provisions of the Airline Customer
have best practices and are moving forward with              Service Commitment,”4 and “Actions Needed To
other initiatives to help mitigate these delays; and         Minimize Long, On-Board Delays.”
(4) there are other actions that airlines, airports,
FAA, and DOT can undertake immediately to                    Recommended Actions
address such situations.
                                                             As a result of our work, we recommended that
In addition, the Inspector General testified four            DOT take a more active role in overseeing airline
times on airline customer service issues and airline         customer service issues. We made a series of
delays before the House and Senate. The Inspector
                                                             4. OIG Report Number AV-2007-012, “Follow-Up Review: Perfor-
3. OIG Report Number AV-2007-077, “Actions Needed To Mini-   mance of U.S. Airlines in Implementing Selected Provisions of the
mize Long, On-Board Flight Delays,” September 25, 2007.      Airline Customer Service Commitment,” November 21, 2006.


		                                                                                      Aviation and Special Programs	           3
Audits and Investigations (continued)

recommendations to the Department that DOT,           Looking Forward
the airlines, airports, and FAA can take to improve
airline customer service and minimize long,           Airline customer service issues will likely remain
on-board delays. Many of the recommendations          a major challenge for the Department for some
are not new and date back to recommendations          time given the record‑breaking flight delays,
in our 2001 report, which were directed at delay      cancellations, diversions, and on-board tarmac
and cancellation problems—key drivers of              delays that air travelers have already experienced
customer dissatisfaction with airlines. The prior     this year. In addition, forecasted air travel
recommended actions to airlines include:              demands will continue to strain the capacity of the
                                                      system. However, the Department must make it a
•	 defining what constitutes an “extended period
                                                      top priority to reduce aviation delays—including
   of time” for meeting passengers’ essential needs
                                                      on-board delays—and alleviate customer
   and setting time limits for on-board delay
                                                      dissatisfaction when delays occur.
   durations;
                                                      The Department’s specific challenges for reducing
•	 establishing specific targets for reducing
                                                      air travel congestion include:
   chronically delayed or cancelled flights;
                                                      •	 reducing aviation delays, improving customer
•	 disclosing on-time flight performance; and
                                                         service, and meeting near-term demand for air
•	 resuming efforts to self-audit their customer         travel and
   service plans.
                                                      •	 keeping planned infrastructure and airspace
We also recommended that (1) airlines specify in         projects on schedule to relieve congestion and
detail their policies and plans to minimize long,        delays.
on-board delays and off-load passengers within
                                                      Although there is no “silver bullet,” a cumulative
certain periods of time and adhere to such policies
                                                      mix of solutions could help. These include
and (2) airport operators become more involved
                                                      scheduling procedures, air traffic control
in contingency planning for extraordinary flight
                                                      modernization, and ground infrastructure (new
disruptions. There are also best practices and
                                                      runways). Complex policy questions, such as
ongoing initiatives that, if properly executed,
                                                      peak-hour pricing, could also contribute to
should help to mitigate long, on-board delays in
                                                      potential solutions.
the immediate term, such as keeping gate space
available for off-loading passengers in times of      Short- and long-term solutions to these delay
irregular operations.                                 problems must be pursued. The airlines and
                                                      airports must do their part in the short term
A more comprehensive plan of action is also
                                                      to effectively implement their customer service
needed to prevent and mitigate long, on-board
                                                      plans—including contingency plans—especially
delays and should involve collaboration among
                                                      when extraordinary flight disruptions cause
airlines, airports, FAA, and DOT. Therefore,
                                                      significant delays, cancellations, and diversions.
we recommended that a national task force of
                                                      DOT should also take a more active role in
representatives from each of these groups be
                                                      overseeing customer service issues to ensure
established to develop and coordinate contingency
                                                      that airlines comply with their policies on flight
plans to deal with lengthy delays.
                                                      problems.



4	   Semiannual Report to Congress
Audits
FAA’s Actions Taken To Address Allegations           and (2) require the Bloomington CMO to report to
of Unsafe Maintenance Practices at                   the Director of Flight Standards Service on actions
Northwest Airlines                                   taken by the CMO and Northwest to resolve
September 28, 2007                                   deficiencies identified by inspectors and FAA
                                                     review teams. FAA concurred, and its planned
We issued our report on FAA’s actions taken          actions satisfy the intent of our recommendations.
to address allegations of unsafe maintenance
practices at Northwest Airlines. These allegations   Testimonies on Actions Needed To Improve
were reported by an FAA Aviation Safety Inspector    Airline Customer Service and Minimize
assigned to FAA’s Northwest Airlines Certificate     Long, On-Board Delays Before the Senate
Management Office (CMO) in Bloomington,              Committee on Commerce, Science, and
Minnesota. The allegations focused on training       Transportation, Subcommittee on Aviation
for Northwest’s replacement mechanics and            Operations, Safety, and Security and the
management personnel transferred into                House Committee on Transportation and
maintenance roles and processes for receipt of       Infrastructure, Subcommittee on Aviation
aircraft parts. The complainant contacted then
                                                     September 27, 2007, and September 26, 2007
Minnesota Senator Mark Dayton, who requested
that FAA and the OIG evaluate the validity of        The Inspector General testified before Congress
these allegations. We determined that FAA needs      regarding actions needed to improve airline
better procedures for responding to and resolving    customer service and minimize long, on-board
safety complaints identified by its inspectors. We   delays. Earlier this year, Secretary Peters expressed
recommended that FAA (1) require the Flight          serious concerns about the airlines’ treatment of
Standards Service to establish better internal       passengers during extended ground delays. She
review procedures to ensure that comprehensive,      then requested that we examine (1) the specific
independent investigations of safety allegations     incidents involving American Airlines and JetBlue
and recommendations are consistently performed,      Airways, during which passengers were stranded
                                                     on board aircraft for extended periods of time,
                                                     and (2) the Air Transport Association’s member
                                                     airlines’ contingency plans for dealing with long,
                                                     on-board delays. She also requested that we
                                                     highlight industry best practices that can help to
                                                     mitigate these situations and recommend what
                                                     actions should be taken to prevent a recurrence of
                                                     such events. Based on the results of our review, we
                                                     identified four key points on actions that would
                                                     help to improve airline customer service and
                                                     minimize long, on-board delays: (1) the airlines
                                                     should specify in detail their policies and plans
                                                     to minimize long, on-board delays and off-load
                                                     passengers within certain periods of time and
                                                     adhere to such policies; (2) airports’ operators
                                                     should become more involved in contingency

		                                                                        Aviation and Special Programs	   5
Audits and Investigations (continued)

planning for extraordinary flight disruptions;           address such situations. DOT should take a more
(3) there are best practices and ongoing initiatives     active role in overseeing customer service issues,
that, if properly executed, should help to mitigate      and we recommended several actions that DOT,
long, on-board delays in the immediate term;             airlines, airports, and FAA can take to improve
and (4) DOT, FAA, airlines, and airports should          airline customer service and minimize long,
complete actions immediately on outstanding              on-board delays. Many of the recommendations
recommendations—some dating back to 2001—to              are not new and date back to recommendations in
improve airline customer service and minimize            our 2001 report, which were directed at delay and
long, on-board delays.                                   cancellation problems—key drivers of customer
                                                         dissatisfaction with airlines.
Actions Needed To Minimize Long, On-
Board Flight Delays                                      FAA’s Oversight of Inactive Airport
September 25, 2007                                       Improvement Program Grant Obligations
                                                         September 13, 2007
We issued our final audit report, “Actions Needed
To Minimize Long, On-Board Delays,” in response          We issued our report on FAA’s oversight of inactive
to the Secretary’s request that we to examine these      Airport Improvement Program (AIP) grant
delays. We found that, as demonstrated by the            obligations. The objectives of our audit were
severity of the on-board delays last winter, airlines,   to (1) assess the effectiveness of FAA’s policies
airports, FAA, and DOT must work together to             and procedures for identifying, reviewing, and
reduce long, on-board delays and minimize the            de-obligating unneeded AIP grant obligations and
impact on passengers when these delays occur.            (2) determine the extent to which unneeded AIP
Flight delays and cancellations continue as a            grant obligations should be liquidated and put
major source of customer dissatisfaction. These          to better use on other projects or returned to the
are further compounded by reduced capacity               Airport and Airway Trust Fund. In FY 2006, FAA
and increased demand, which leads to increased           resolved a significant number of inactive and old
passenger inconvenience and dissatisfaction              AIP grants. Despite this progress, we identified
with customer service. With more seats filled,           two areas for improvement: (1) FAA’s process
air carriers have fewer options to accommodate           for overseeing inactive grants allowed some to
passengers from cancelled flights. These delays          remain idle for periods of time that exceeded the
occurred throughout the system and at many               Agency’s standard measure of 18 months, and
airlines, and, after the severe on-board delays          (2) approximately $9.7 million in funds was not
last winter, the Secretary asked that we assess          de-obligated on 76 closed grants, on average, for
airlines’ contingency planning for such situations.      21 months. For most of these grants, FAA either
Overall, we found that (1) the on-board delays that      failed to de-obligate unneeded funds or allowed
passengers endured last winter were largely due to       airport sponsors to continue expending funds after
airlines’ lack of a system-wide policy to minimize       the grants were closed both of which are actions
such delays; (2) airlines’ and airports’ customer        contrary to FAA policy. If FAA had addressed these
service contingency plans are still not adequate to      grants sooner, the funds could have been put to
handle these occurrences; (3) airlines and airports      better use on other projects. While Agency officials
have best practices and are moving forward with          have taken some corrective steps to address these
other initiatives to help mitigate these delays; and     weaknesses, FAA still needs to strengthen its review
(4) there are other actions that airlines, airports,     process to ensure that grants do not remain idle
FAA, and DOT can undertake immediately to                longer than 18 months and establish a process for


6	   Semiannual Report to Congress
ensuring that grants are not closed prematurely and   focusing on programmatic actions that could
do not retain any unneeded funds.                     help FAA to reduce runway incursions system-
                                                      wide. FAA senior officials verbally agreed with
Aviation Safety: FAA Oversight of Foreign             our recommendations; however, FAA’s formal
Repair Stations                                       response did not explicitly state whether the
June 20, 2007                                         Agency concurred or non-concurred. Further,
                                                      the actions proposed by FAA were unspecific as
The Inspector General testified on FAA’s oversight    to how or when the Agency would address the
of foreign repair stations before the Senate          intent of our recommendations. We requested
Subcommittee on Aviation Operations, Safety,          that FAA provide us with additional information
and Security. Specifically, the Inspector General     regarding the specific actions that it plans to take
discussed recent trends in outsourcing aircraft       to implement each of our recommendations along
maintenance, regulatory differences between           with timeframes for completion.
domestic and foreign repair stations, and two
key areas in FAA’s efforts to effectively oversee     Interim Report on Controls Over the FAA’s
outsourced maintenance: (1) strengthening safety      Conversion of Flight Service Stations to
oversight of repair stations and non-certificated     Contract Operations
repair facilities, and (2) ensuring that inspectors   May 18, 2007
are well-positioned to adequately oversee
maintenance outsourcing.                              We issued our interim report on controls over
                                                      FAA’s conversion of flight service stations to
Progress Has Been Made in Reducing                    contract operations. Overall, we found that FAA
Runway Incursions, but Recent Incidents               had implemented effective controls over the initial
Underscore the Need for Further Proactive             transition of flight service stations to contract
Efforts                                               operations. However, it is uncertain if those
May 24, 2007                                          controls will be sufficient to ensure anticipated
                                                      savings are achieved as FAA and the contractor
We issued our final report on FAA’s actions to        begin the next and most critical phase of the
address runway incursions (near collisions on         transition. In February, the contractor began
a runway) at Boston Logan, Chicago O’Hare,            efforts to complete, test, and implement
Philadelphia, and Los Angeles International           a new software operating system for flight
Airports. Overall, we found that FAA, airlines,       service stations and consolidate the existing
and airport operators had taken actions to            58 sites into 3 hub and 16 refurbished locations all
address runway incursions. However, those             within a 5-month timeframe. Any slips in that
actions were taken only after an increase in the      schedule could have significant implications to
number and severity of incidents that occurred        the costs and anticipated savings of the transition.
at those airports. Preventing runway incursions       Additionally, we found that improvements are
throughout the National Airspace System               needed to ensure that the operational needs of
requires continuous vigilance on the part of          users continue to be met. We found that staffing
FAA and users. Compared to 5 years ago, FAA           levels at outsourced facilities are lower than what
has made significant progress in reducing those       the contractor anticipated, resulting in some users
incidents. However, the serious risks associated      being routed to adjacent facilities that did not
with runway incursions underscore the need for        have adequate local knowledge of the airspace.
maintaining a proactive approach for preventing       This issue could be compounded if there are
serious incidents. We made six recommendations        delays in fielding the new operating system or

		                                                                         Aviation and Special Programs	   7
Audits and Investigations (continued)

consolidating facilities. FAA concurred with our           FAA’s FY 2008 Budget Request: Key Issues
recommendations and is taking corrective actions.          Facing the Agency
                                                           May 10, 2007
Letter to Chairman Oberstar Regarding a
Follow-Up Review of Staffing at FAA Control                The Inspector General testified regarding
Towers                                                     FAA’s FY 2008 budget request before the Senate
May 10, 2007                                               Appropriations Committee, Subcommittee
                                                           on Transportation, Housing and Urban
In December 2006, staff from Chairman Oberstar’s           Development, and Related Agencies. The
office requested that we perform a follow-up               Inspector General testified that, regardless of the
review to determine if FAA facilities are complying        funding mechanism ultimately decided upon
with FAA’s new written policy for staffing on              by the Congress, several issues require FAA’s
midnight shifts. Overall, we found that facilities are     attention and will shape the Agency’s funding
complying with FAA’s new policy. Our sample of             requirements over the next several years. These
45 days of staffing data at each of the 15 statistically   include (1) keeping existing modernization
selected locations found that at least 2 controllers       efforts on track and reducing risks with Next
were scheduled on all midnight shifts at those             Generation Air Transportation System (NextGen),
locations and that controllers were not combining          (2) addressing attrition in FAA’s controller
positions for extended periods of time. In addition,       and inspector workforces, (3) determining the
we found that FAA is taking actions to address             appropriate amount of airport funding, and
the recommendation from our March 2007 report              (4) addressing acquisition and contracting issues.
to develop and implement appropriate procedures
to ensure that facilities are complying with the           Actions Needed To Reduce Risk With the
new policy.                                                Next Generation Air Transportation System
                                                           May 9, 2007

                                                           Inspector General Scovel testified before Congress
                                                           on FAA’s efforts to develop and implement the
                                                           NextGen. FAA’s Joint Planning and Development
                                                           Office (JPDO) was established by law to begin
                                                           advancing NextGen in the 2025 timeframe
                                                           and coordinate diverse Federal research and
                                                           development efforts. The Inspector General
                                                           focused on three areas: (1) FAA’s progress and
                                                           problems with ongoing modernization projects—
                                                           this is important because existing projects form
                                                           the basic platforms for NextGen initiatives;
                                                           (2) the JPDO’s progress to date in coordinating and
                                                           aligning agency budgets and plans for NextGen—
                                                           much work remains to achieve this and truly
                                                           make the JPDO a multi-agency effort; and
                                                           (3) FAA actions needed to help the JPDO shift from
                                                           planning to implementation and reduce risk with
                                                           NextGen—a complex, multibillion-dollar effort.


8	   Semiannual Report to Congress
Testimonies Regarding Actions Needed To
Improve Airline Customer Service Before the
House Committee on Transportation and
Infrastructure, Subcommittee on Aviation
and the Senate Committee on Commerce,
Science, and Transportation
April 20, 2007, and April 11, 2007

The Inspector General testified before Congress
regarding actions needed to improve airline
customer service. The testimony focused on our
prior airline customer service work as well as
our ongoing work, given this past winter’s events
involving extended ground delays. In some cases,
passengers were stranded on board aircraft at the
                                                        which were directed at delay and cancellation
gate or on the airport tarmac for 9 hours or longer
                                                        problems—key drivers of customer dissatisfaction
due to severe weather conditions. Also, in 2007,
                                                        with airlines.
air travelers continued to experience customer
dissatisfaction from record‑breaking flight delays,     1.	Airlines should implement quality assurance
cancellations, and on-board tarmac delays. Based           and performance measurement systems and
on the first 2 months of the year, nearly 1 in 3           conduct internal audits of their compliance with
flights (31 percent) were delayed, cancelled, or           the Commitment provisions.
diverted, affecting approximately 22.8 million
passengers. This was an increase over the same          2.	DOT should revisit its current position on
period in 2006 when nearly 23 percent of scheduled         chronic delays and cancellations and take
flights were delayed, cancelled, or diverted,              enforcement actions against air carriers that
affecting an estimated 16.6 million passengers. The        consistently advertise flight schedules that are
Inspector General testified that (1) airlines must         unrealistic, regardless of the reason.
refocus their efforts to improve customer service,
(2) the Department should take a more active role       3.	The airlines, airports, and FAA should
in airline customer service issues, (3) airlines must      establish a task force to coordinate and develop
overcome challenges in mitigating extraordinary            contingency plans to deal with lengthy delays,
flight disruptions, and (4) airlines should improve        such as working with carriers and the airports
customer service for passengers who are stranded           to share facilities and make gates available in an
on board aircraft for extended periods of time.            emergency.

Our work also showed that there are several             4.	DOT should collaborate with FAA, the airlines,
actions that airlines, airports, the Department,           and airports to review incidents involving
and FAA can undertake immediately—without                  long, on-board ground delays and their causes;
congressional action—to improve airline customer           identify trends and patterns of such events; and
service. Many of the actions are not new and date          implement workable solutions for mitigating
back to recommendations in our 2001 report,                extraordinary flight disruptions.




		                                                                            Aviation and Special Programs	   9
Audits and Investigations (continued)


INVESTIGATIONS
FAA Safety Manager Fined for Making                    Former Official of Michigan Aircraft Parts
False Statement on FAA Application                     Supplier Pleads Guilty to Charges of
March 28, 2007                                         Conspiracy To Commit Aircraft Parts Fraud
                                                       June 12, 2007
John R. Black, a former aviation safety program
manager in the Federal Aviation Administration’s       Alan Maliszewski, former quality control
(FAA’s) Spokane, Washington, Flight Standards          manager of a now-defunct aircraft parts
District Office, was fined $1,000 and ordered to       supplier, pleaded guilty in U.S. District Court
serve 3 years probation by a U.S. District Court       in Detroit, Michigan, on June 12, 2007, to a
judge in Spokane on March 28, 2007, for failing        charge of conspiracy to commit aircraft parts
to report disqualifying prescription medications       fraud. Anco Tech, Inc., of Dearborn Heights,
on his 2004 FAA Application for Airman Medical         Michigan, manufactured titanium tubing for use
Certificate. Black pleaded guilty on November          in military and civilian aircraft, including the
27, 2006, to a charge of making a false statement      V-22 Osprey tilt-rotor military aircraft, business
on his FAA Airman Medical Application. FAA             jets, and commercial helicopters. Between
considered Black a “national resource” pilot for the   April 2000 and February 2002, Anco Tech sold
Falcon jet because of his knowledge and expertise      titanium tubing that was certified as having
with this type of aircraft. Black’s duties included    been manufactured, inspected, and tested for
conducting proving flights for Falcon jet pilots       conformance with specifications, when, in fact,
approximately once a month. Black resigned from        it had not. Maliszewski and his brother, Andrew
the FAA after his indictment in June 2006.             Maliszewski—Anco’s former vice president and
                                                       quality assurance manager—were indicted in
Florida Pilot Sentenced For Making                     June 2005 on conspiracy and aircraft parts fraud
False Statements on Medical Forms                      charges. Andrew Maliszewski pleaded guilty
June 1, 2007                                           in U.S. District Court in Detroit, Michigan, to
                                                       similar charges on April 2. Two other former
Vincent Milo was ordered by a U.S. District Court      Anco Tech employees—both quality assurance
judge in Fort Lauderdale, Florida, on June 1, 2007,    supervisors—also pleaded guilty in 2005 to
to pay a $1,000 fine and serve 3 years probation       charges of making false statements related to
as a result of his conviction on charges of false      certifications for V-22 parts. While Anco will
statements on his applications for his 2002 and        not be debarred, all four individuals will be
2004 Airman Medical Certificates. Milo, who            debarred following sentencing. A sentencing date
held a commercial pilot’s certificate, was ordered     has not been scheduled yet. This investigation
to serve the initial 6 months probation in home        was conducted jointly with the Defense Criminal
confinement. A Federal jury convicted Milo in          Investigative Service and the Naval Criminal
March of two counts of making false statements         Investigative Service. For safety purposes,
regarding his use of prescription medication. Milo     DOT/OIG continuously kept the Federal
claimed that he was not taking any prescription        Aviation Administration apprised of findings
drugs, when in fact he was receiving workers           from its investigation.
compensation from the U.S. Postal Service and
taking prescription medications. This investigation
was conducted jointly with the U.S. Postal Service
Office of Inspector General.

10	 Semiannual Report to Congress
Employee of Aerospace Metals Company
Ordered to Pay More Than $213,000 in
Restitution in Aerospace Parts Fraud Case
June 20, 2007

Russell Cohen, a former sales manager for
M&M International Aerospace Metals, Inc.
in Fort Lauderdale, Florida, was sentenced on
June 20, 2007, by a U.S. District Court judge in
Fort Lauderdale to pay a portion of $213,402
in restitution for his role in fraud involving
aerospace parts. Cohen was also ordered to
serve 33 months incarceration and 24 months
supervised release as a result of his guilty plea
on January 19 to one charge each of making a
false statement and wire fraud. M&M Aerospace
supplied metals to the aerospace community,           Former Aviation Repair Station Owner
including NASA and the U.S. Departments of            Convicted of Improper Repair and Service
Defense and Energy. M&M customers used the            of Aircraft Propellers
materials in various aerospace-grade aluminum         June 21, 2007
and stainless steel plates, flat stock, and bars.
Cohen pleaded guilty to conspiring with the           John W. Downs, a former aviation repair station
owners and several employees of the now-defunct       owner, was found guilty on June 21, 2007, in
company to alter test certificates from metals        U.S. District Court in Dallas, Texas, of charges
testing laboratories and certificates of compliance   of fraud and making false statements involving
from metal distributors when test results and         aircraft parts. Downs owned Millennium
specifications listed on these documents did not      Propeller System, Inc., a now-defunct aircraft
conform to the customers’ metal specifications and    propeller maintenance business in Lancaster,
purchase order requirements. The Federal Aviation     Texas. According to testimony at trial, Downs and
Administration (FAA) issued an unapproved             his company made undocumented alterations to
parts notification in December 2005 to aircraft       propellers on aircraft used for noncommercial
owners, operators, maintenance organizations,         use, installed unserviceable parts on aircraft
manufacturers, parts suppliers, and distributors.     propellers, and continued to perform repairs after
This investigation was conducted jointly with         the company’s repair station certificate had been
the FAA, U.S. Department of Energy Office of          revoked. Sentencing is scheduled for October 18.
Inspector General, NASA Office of Inspector
General, and Defense Criminal Investigative           Former Commercial Pilot Pleads Guilty to
Service.                                              Falsifying FAA Medical Forms
                                                      July 12, 2007

                                                      Ronald N. Crews pleaded guilty on July 12, 2007,
                                                      in U.S. District Court in Boston, Massachusetts,
                                                      to charges of making false statements on his
                                                      Airman Medical Certificate application
                                                      forms. Crews, a former commercial pilot for

		                                                                        Aviation and Special Programs	 11
Audits and Investigations (continued)

Cape Air/Nantucket Airlines (Cape Air), was               was investigated jointly with FAA and the Tennessee
charged in November 2005 with failing to                  Bureau of Investigation.
disclose that he was an insulin-dependent
diabetic—a condition that could have prohibited           Falsification of FAA Airman Medical
his employment as a commercial pilot. The                 Certificate Applications by Disability
investigation was initiated after a February 2002         Recipients
incident in which Crews became incapacitated              July 17, 2007
while piloting a Cape Air plane from Martha’s
Vineyard to Barnstable, Massachusetts, with four          The Inspector General (IG) testified before the
passengers aboard. No copilot was on the plane,           Committee on Transportation and Infrastructure,
so a passenger who happened to be a student               Subcommittee on Aviation, on July 17, 2007,
pilot landed the airplane. Sentencing is scheduled        about the falsification of FAA Airman Medical
for March 20, 2008.                                       Certificate applications by disability recipients.
                                                          Specifically, the IG discussed three key points
Owner of Tennessee Aircraft Sales Company                 for mitigating the safety risks posed by airmen
Convicted of Interstate Wire Fraud                        who falsify their Airman Medical Certificate
July 12, 2007                                             applications to conceal disqualifying medical
                                                          conditions: (1) FAA’s Airman Medical Certification
James Randall Jennings of Goodlettsville,                 Program is a key safeguard to ensure pilots are
Tennessee, was convicted by a Federal jury on             medically fit to fly; (2) Operation Safe Pilot,
July 12, 2007, in U.S. District Court in Nashville,       DOT/OIG’s joint investigation with the Social
Tennessee, of charges related to the falsification of     Security Administration’s Office of Inspector
the logbook of a two-seat helicopter he was trying        General, disclosed a potential systemic problem
to sell. Jennings, owner of Jennings Aircraft Sales,      that requires greater attention and oversight by
was convicted of two counts of interstate wire            FAA; and (3) in addition to actions its already
fraud for e-mailing and faxing false information          taking, FAA should consider conducting education
to potential buyers regarding the amount of hours         and outreach efforts to ensure pilots accurately
flown on the helicopter. Witnesses at trial testified     disclose their medical histories and offering a
that the Federal Aviation Administration (FAA)            grace period to pilots who self-identify previously
requires this model of helicopter to undergo a major      undisclosed and potentially disqualifying medical
overhaul after 2,200 hours of flight time, at a cost of   conditions to ensure that disabled pilots are not
between $80,000 and $90,000. Unless overhauled,           circumventing the medical certification process.
a helicopter with this much flight time would not
be considered airworthy or safe to fly. In spite of       California Air Ambulance Pilot Sentenced
having exceeded the 2,200 hour limit, Jennings            for Falsification of FAA Airman Medical
advertised the helicopter as having been flown about      Certificate
1,600 hours. He supported this false representation       August 8, 2007
by showing potential purchasers altered flight logs
and an on-board flight meter that reflected these         Michael David Pennington of Susanville,
lower flight hours. The fraud was discovered when a       California, was ordered by a U.S. District Court
Texas man purchased the helicopter from Jennings          judge in Sacramento, California, on August 8, 2007,
and took it to an aircraft maintenance business           to repay $37,456 in excess Social Security disability
that had previously maintained the helicopter.            benefits, pay a $500 fine, and serve 180 days home
Sentencing is scheduled for December 3. This case         detention as a result of his March conviction by a
                                                          Federal jury on charges of making false statements

12	 Semiannual Report to Congress
on his application for an Airman Medical                disclose any nontraffic felony and misdemeanor
Certificate and failing to report Social Security       convictions. Although Mr. Schweitzer responded
disability overpayments. Pennington was a former        that he had none, he had in fact been convicted
chief pilot and maintenance director for Mountain       in New Jersey in 1979 for distribution of cocaine
Life Flight, an air ambulance service based in          and in 1980 in the Dominican Republic after
Susanville. Testimony during the trial disclosed        landing an airplane containing 1,830 pounds of
that Pennington falsified his application for his       marijuana and 1,362 grams of cocaine. Schweitzer
annual Airman Medical Certificate between 2001          is scheduled to be sentenced on December 6.
and 2004 by failing to indicate that he was receiving
disability benefits for debilitating back disorders     Oklahoma Aircraft Mechanic and Aircraft
and rheumatoid arthritis. Pennington also failed        Parts Broker Sentenced for Falsification
to inform the Social Security Administration that       of Records in Connection with Improper
he was employed during that period, resulting           Aircraft Engine Overhauls
in his receiving excess Social Security disability      September 28, 2007
payments from 2003 to 2005. The FAA issued
an emergency revocation on all of Pennington’s          Larry G. Good and Robert E. Parker were
airman certificates.                                    sentenced in U.S. District Court in Oklahoma City,
                                                        Oklahoma, on September 28, 2007, for falsifying
Private Pilot Pleads Guilty to Making a                 records in connection with improper aircraft
False Statement on FAA Applications                     engine overhauls. Good was sentenced to serve
for Airman Medical Certification                        14 months of incarceration and 12 months
September 26, 2007                                      probation, as well as ordered to pay $306,990 in
                                                        restitution. Parker was sentenced to serve 72 months
John J. Schweitzer pleaded guilty in U.S.               of incarceration and 36 months of probation, as
District Court in Salt Lake City, Utah, on              well as ordered to pay $378,633 in restitution. The
September 26, 2007, to one count of making              investigation revealed that Good, a certified aircraft
false statements on his 2001, 2002, and 2003            mechanic, along with Parker, a self-employed
applications for an Airman Medical Certificate.         aircraft parts broker, falsified entries in aircraft
As part of the annual requirements to maintain          logbooks in connection with the overhaul of aircraft
a private license, before taking an aviation            engines. They were aware the engines were not
medical exam, a pilot must provide certain              overhauled properly, contained replacement parts
factual information in writing and certify that         that were marked “not airworthy,” or were simply
it is truthful and accurate. Pilots are required to     unsafe for use on an aircraft.

		                                                                            Aviation and Special Programs	 13
14	 Semiannual Report to Congress
Surface and Maritime Programs




In Focus: OIG COMPLETES INITIAL AUDIT OF NAFTA CROSS-BORDER TRUCKING 				
	DEMONSTRATION PROJECT
One issue that has repeatedly occupied                trucking companies was limited to the narrow
congressional and motor carrier agendas for over      commercial zones within the U.S. border states,
10 years is whether Mexican trucks should be          and U.S. companies were not allowed any access to
allowed to operate throughout the United States.      Mexican highways.
The Office of Inspector General (OIG) has played
a key role in providing objective information
to Congress on actions that the Federal Motor
Carrier Safety Administration (FMCSA) has taken
to ensure that congressionally established safety
requirements are met before Mexican trucks are
granted unlimited authority to operate in this
country.

The issue originated with the 1994 North
American Free Trade Agreement (NAFTA) that set
a schedule for allowing U.S. and Mexican motor
carriers to operate on both Nations’ highways.
The schedule called for reciprocal access to border
                                                       Trucks at the El Paso/Ysleta, Texas, border crossing
states by 1995 and full long-haul access by 2000.
                                                                     (June 2007, DOT OIG)
However, until September 2007, access for Mexican


		                                                       In Focus: Top Management  Challenges
                                                                           Surface and        Facing
                                                                                       Maritime      DOT	 15
                                                                                                Programs	
Audits and Investigations (continued)

The OIG has been assessing FMCSA’s
preparations for granting long-haul authority to
Mexican carriers since 1999. Eight OIG audits
have identified areas for improvement and shown
that FMCSA has made continuous progress to
safely implement cross-border trucking by hiring
and properly training inspectors, establishing and
improving inspection facilities, and developing
safety policies and procedures for potential long-
haul Mexican motor carriers. For instance, the
number of Federal inspection personnel at the
southern border has increased from 13 in 1998
to 254 in 2007. In addition, the out-of-service
rates for Mexican vehicles and drivers—the
rate at which a vehicle or driver safety violation                   Inspection of a commercial vehicle at a Virginia
precludes further operation of a commercial                             inspection station (June 2007, DOT OIG)
vehicle—have not only decreased but in recent
years, they were below that of U.S. vehicles and                   Before the September 2007 initiation of the
drivers.                                                           demonstration project, the OIG reviewed FMCSA’s
                                                                   preparations for monitoring and enforcing safety
Table 2. FY 2004–FY 2006 Out-of-Service Rates of                   rules among the demonstration participants. We
United States and Mexican Motor Carriers (rates are in             found that FMCSA had implemented significant
percentages)                                                       initiatives to address legislative requirements
                                                                   and cross-border safety concerns and had
     Domicile            Vehicle Rates           Driver Rates      established mechanisms for monitoring and
                   2004      2005   2006   2004      2005   2006
                                                                   enforcing U.S. safety rules and regulations, such
                                                                   as conducting truck inspections at the border and
United States     22.6      22.4    22.3   6.8      6.9     7.3
                                                                   throughout the United States. However, FMCSA
Mexico            23.1      20.4    20.9   1.9      1.1     1.2
                                                                   needed to complete plans for inspecting trucks at
Source: OIG analysis of data from FMCSA’s Motor
                                                                   specific border crossings and to fully communicate
Carrier Management Information System                              demonstration project guidance to state
                                                                   enforcement officials. In its response to Congress,
In February 2007, the Department announced a                       FMCSA provided site-specific plans for inspecting
1-year demonstration project to permit up to 100                   trucks at each border crossing and information
Mexico-domiciled carriers to begin long-haul                       on past and future training designed to ensure
operations beyond the commercial zones in the                      that demonstration project guidance was fully
border states. The demonstration project also                      communicated to state enforcement personnel.
allows a similar number of United States carriers                  As required by Congress, we plan to continue
to operate throughout Mexico. The project is                       monitoring and reviewing how the demonstration
designed to demonstrate the ability of Mexican                     project is conducted. We will review FMCSA’s
motor carriers to operate safely in the United                     progress in ensuring that sufficient inspection
States beyond the commercial zones in the border                   processes are implemented at each border crossing
states.


16	 Semiannual Report to Congress
and roadside inspectors are properly trained           will use to assess the ability of Mexican motor
to appropriately enforce demonstration project         carriers to operate safely in the United States. The
requirements. In addition, we will examine             Department has also appointed an independent
FMCSA’s process for identifying any adverse            evaluation panel to examine the safety impacts of
effects of the demonstration project on motor          the demonstration project.
carrier safety and the adequacy of the data FMCSA




Audits
FHWA Can Do More in the Short Term To                  to take action as may be necessary to address any
Improve Oversight of Structurally Deficient            issues we raised in this report and submit a report
Bridges                                                to Congress detailing such actions. Our review
September 20, 2007                                     found that FMCSA has implemented significant
                                                       initiatives to address congressional requirements
The Inspector General testified before the Senate      and cross-border safety concerns. Despite these
Committee on Environment and Public Works              accomplishments, we identified three issues
on the oversight of structurally deficient bridges.    pertaining to the proposed demonstration project.
The Inspector General’s statement focused on           The Secretary’s report to Congress should at
(1) bridge inspections and funding for bridge          a minimum include actions being taken to
rehabilitation and replacement as significant          (1) ensure that sufficient plans are in place to carry
challenges for DOT, (2) FHWA’s actions to address      out the Department’s commitment to check every
prior OIG recommendations to improve its               demonstration project truck every time it crosses
oversight of structurally deficient bridges, and       the border into the United States, (2) ensure that
(3) outlined actions that can be taken immediately     state enforcement officials understand how to
to strengthen FHWA’s oversight. The Inspector          implement recent guidance on the demonstration
General called on FHWA to develop a data-driven,       project and that training initiatives filter down
risk-based approach to bridge oversight to better      to roadside inspectors, and (3) address our
identify and target those structurally deficient       determination that FMCSA has implemented
bridges most in need of attention.                     policies, rules, and regulations that differ slightly
                                                       from the language in 3 of 34 specific congressional
Issues Pertaining to the Proposed North                requirements.
American Free Trade Agreement (NAFTA)
Cross-Border Trucking Demonstration                    FHWA’s Oversight of Structurally Deficient
Project                                                Bridges
September 6, 2007                                      September 5, 2007

We issued our report, “Issues Pertaining to            The Inspector General testified before the House
the Proposed NAFTA Cross-Border Trucking               Committee on Transportation and Infrastructure
Demonstration Project,” as required by the             on FHWA’s oversight of structurally deficient
May 2007 Iraqi Supplemental Appropriations Act         bridges. The Inspector General’s statement
(P.L. 110-28). Prior to initiating any demonstration   discussed bridge safety and funding as significant
project the Secretary of Transportation is required    issues for DOT, previous work regarding


		                                                                          Surface and Maritime Programs	 17
Audits and Investigations (continued)

structurally deficient bridges in the United         the report identified necessary remedial measures.
States, and FHWA’s actions to address prior OIG      We found that Phase I generally analyzed the
recommendations to improve its oversight of such     correct project components; however, certain items
bridges. The Inspector General called on FHWA        should have been classified as higher priority safety
to develop a data-driven, risk-based approach        risks in the Phase I report and necessary follow-up
to bridge oversight to better identify and target    activities should have been made clearer. We also
those structurally deficient bridges most in need    found that the leadership, scope, and methodology
of attention. Additionally, the Inspection General   for Phase II of the Stem to Stern Safety Review
described actions that can be taken immediately to   need to be specified and that aggressive action is
strengthen the FHWA’s oversight.                     needed going forward. FHWA agreed with the
                                                     findings in our report and concurred with its
Initial Assessment of the Central Artery/            recommendations.
Tunnel Project Stem to Stern Safety Review
August 16, 2007                                      Follow-Up Audit on NAFTA Cross-Border
                                                     Trucking Provisions
We issued our report, “Initial Assessment of the     August 6, 2007
Central Artery/Tunnel Project Stem to Stern
Safety Review.” This assessment is part of our       We issued our report on FMCSA’s actions
ongoing independent oversight, as requested by the   taken in response to our January 2005 report
Massachusetts Congressional delegation in            on the implementation of the NAFTA cross-
July 2006 and subsequently reaffirmed by the         border trucking provisions. This report is our
NTSB Reauthorization Act of 2006. The Stem           annual review required under Section 350 (c)
to Stern safety review is divided into several       of the FY 2002 Department of Transportation
phases, with Phase I being a purposely limited and   Appropriations Act and is not the ongoing initial
expeditious review to identify immediate risks to    audit of the demonstration project required
public safety. We evaluated whether the findings     under Section 6901 of the U.S. Troop Readiness,
and recommendations in the Phase I report            Veterans’ Care, Katrina Recovery and Iraq
adequately analyzed immediate risks and whether      Accountability Appropriations Act of 2007. We
                                                     found continual improvement in the border safety
                                                     program since our earlier reports, which date back
                                                     to 1998. FMCSA took the actions it agreed to in
                                                     response to our nine recommendations. FMCSA
                                                     actions included ensuring that five remaining
                                                     states adopted a rule requiring enforcement
                                                     action against Mexican motor carriers or others
                                                     operating without proper authority from FMCSA.
                                                     Despite the progress FMCSA has made, additional
                                                     improvements are needed in two of the eight
                                                     Section 350 (c) criteria. These involve improving
                                                     the quality of the data used to monitor Mexican
                                                     commercial driver traffic convictions in the
                                                     United States and ensuring adequate capacity to
                                                     inspect Mexican buses. FMCSA concurred with



18	 Semiannual Report to Congress
our recommendations and proposed responsive            Infrastructure Finance and Innovation Act Credit
corrective actions.                                    Council to share information. FTA responded
                                                       to our recommendations on September 10, 2007,
Baseline Report on Major Project                       partially concurring with the recommendation
Monitoring of the Dulles Corridor Metrorail            on re-evaluating transportation user benefits and
Project                                                concurring with all other recommendations. On
July 27, 2007                                          October 31, 2007, we requested clarification from
                                                       FTA regarding the partial concurrence. We are
We issued our baseline report resulting from our       waiting for FTA’s response.
initial monitoring of the Dulles Corridor
Metrorail Project. The Dulles Corridor                 Motor Carrier Safety: Oversight of High-Risk
Metrorail Project proposes a 23.1-mile extension       Trucking Companies
of Metrorail in the Commonwealth of Virginia.          July 11, 2007
Our report concentrated on Phase I, which is
the first 11.6-mile segment that would run from        The Inspector General testified before the House
existing Metrorail track through the Tysons            Committee on Transportation and Infrastructure,
Corner area to Wiehle Avenue in Reston, Virginia.      Subcommittee on Highways and Transit on
Phase II would ultimately continue Metrorail           oversight of high-risk trucking companies. The
service through the Dulles International Airport       Inspector General’s statement discussed FMCSA’s
to Loudoun County, Virginia. The objectives of         progress as well as the challenges FMCSA faces
the monitoring were to (1) assess the status of the    in formulating programs to help it achieve
project including costs, funding, and schedule, and    its mission. The Inspector General called on
(2) identify any potential risks that may adversely    FMCSA to obtain more complete information on
affect its completion. The report identified several   motor carrier crashes to more effectively target
potential risk areas where FTA needs to provide        the highest risk carriers for compliance reviews
vigilant oversight. We made recommendations for        and to reassess and strengthen the compliance
additional FTA reviews regarding the sufficiency       review process as vulnerabilities are identified.
of local funding sources, the contractual and          The Inspector General also urged FMCSA to
associated arrangements that deal with the             ensure that enforcement actions are taken against
Washington Metropolitan Area Transit Authority,        companies that repeatedly violate motor carrier
and the Washington Metropolitan Airports               safety regulations.
Authority’s project management plan. We also
recommended that FTA consider re-evaluating            Letter to Representative Petri regarding the
the transportation user benefits for the Dulles        Motor Carrier Safety Status Measurement
Corridor Metrorail Project in accordance with          System (SafeStat)
current FTA policy and use the updated figure          June 19, 2007
to make any decisions regarding federal funding
for the project. Finally, we recommended that          We issued correspondence to Representative
the DOT Transportation Infrastructure Finance          Thomas Petri regarding the quality of the
and Innovation Act Credit Council conduct an           underlying data used by SafeStat. Our review,
independent rigorous review of the project’s loan      conducted at Representative Petri’s request, found
application, taking into account all of the unusual    that, despite improvements, problems still exist
risks associated with the project, and that FTA        with states reporting of crash data to FMCSA.
coordinate closely with the DOT Transportation         While states are reporting more commercial motor
                                                       vehicle crashes to FMCSA, we found anomalies

		                                                                        Surface and Maritime Programs	 19
Audits and Investigations (continued)

that caused us to question the completeness of the    and Congress that FTA committed a violation of
non-fatal crash reporting. We recommended that        the Antideficiency Act. In the Department’s
FMCSA implement a new, more reliable estimate         FY 2005 appropriation, the House Appropriations
that would allow evaluation of non-fatal crash        Committee directed FTA to report how the Agency
reporting, both nationally and state-by-state,        had modified its accounting procedures and
before the Department makes all SafeStat scores       practices to prevent Antideficiency Act violations.
available to the public. In February 2008, FMCSA      The Committee also directed our office to review
reported that it had not made SafeStat data           FTA’s new procedures and report to the House
available to the public; however, the Agency had      and Senate Committees on Appropriations on the
implemented the new site data quality measure,        sufficiency of these new procedures. We reviewed
which includes non fatal crash completeness, in       and tested the FTA’s controls and concluded FTA
October 2007. The data can be viewed on FMCSA’s       has implemented sufficient controls to prevent and
Analysis and Information Online Web site.             detect overobligations in the mass transit account
                                                      for the grants program.
Actions Needed To Further Improve
Railroad Safety                                       Opportunities To Further Improve Railroad
May 22, 2007                                          Safety
                                                      May 5, 2007
The Assistant Inspector General for Surface
and Maritime Programs testified before the            The Assistant Inspector General for Surface and
Senate Committee on Commerce, Science,                Maritime Programs testified before the House
and Transportation, Subcommittee on Surface           Subcommittee on Railroads, Pipelines, and
Transportation regarding FRA’s activities to          Hazardous Materials regarding FRA’s activities
oversee safety at the Nation’s highway-rail grade     to oversee safety at the Nation’s highway-rail
crossings (grade crossings). The Assistant            grade crossings (grade crossings). The Assistant
Inspector General testified that FRA can further
improve railroad safety by (1) ensuring compliance
with mandatory reporting requirements for
grade crossing collisions, (2) increasing FRA’s
involvement in investigations of grade crossing
collisions, (3) addressing sight obstructions at
grade crossings without automated warning
devices, (4) establishing reporting requirements
for FRA’s national grade crossing inventory system,
and (5) requiring states with the most dangerous
crossings to develop action plans.

FTA Procedures To Prevent Antideficiency
Act Violations
May 15, 20007

We issued our report on FTA’s actions to prevent
Antideficiency Act violations of grant funds.
In June 2003, the Department reported to OMB


20	 Semiannual Report to Congress
Inspector General testified that FRA can further       reports to those generated by local law enforcement
improve railroad safety by (1) ensuring compliance     agencies; and (c) issuing a violation and assessing
with mandatory reporting requirements for              a civil penalty each time a railroad fails to submit
grade crossing collisions, (2) increasing FRA’s        a grade crossing collision report in accordance
involvement in investigations of grade crossing        with Federal requirements, on a consistent basis.
collisions, (3) addressing sight obstructions at       Moreover, FRA should assess higher civil penalties
grade crossings without automated warning              against each railroad that repeatedly fails to report
devices, (4) establishing reporting requirements       crossing collisions. We also recommended that
for FRA’s national grade crossing inventory system,    FRA work with FHWA to develop model legislation
and (5) requiring states with the most dangerous       for states to improve safety by addressing sight
crossings to develop action plans.                     obstructions at grade crossings that are equipped
                                                       solely with signs, pavement markings, and other
FRA Can Improve Highway-Rail Grade                     passive warnings.
Crossing Safety by Ensuring Compliance
With Accident Reporting Requirements and               Opportunities To Improve Internal Controls
Addressing Sight Obstructions                          Over the Federal Transit Benefit Program
May 3, 2007                                            April 24, 2007

We issued our audit report on FRA’s activities         The Inspector General testified regarding the
to oversee safety at the Nation’s highway-rail         government-wide Federal transit benefit program
grade crossings (grade crossings). This report         before the Senate Committee on Homeland
followed-up on our November 28, 2005 audit             Security and Governmental Affairs, Permanent
report. We found that FRA can do more to               Subcommittee on Investigations. The Inspector
ensure compliance with mandatory reporting             General testified that while the Department
requirements, including reviewing the railroads’       has strengthened internal controls over its
grade crossing collision records and assessing civil   transit benefit program, it can make further
penalties for reporting failures. We also found        improvements including (1) enhancing supervisory
that FRA has no assurance that sight obstructions      oversight of the commuting costs claimed by
are addressed at passive grade crossings (those        employees, and (2) requiring employees to adjust
without automated warning devices) in most states.     their transit benefits upon changes to their
We recommended that FRA strengthen safety              commuting methods or work schedules. DOT also
oversight by ensuring that the railroads comply        has the opportunity to improve internal controls
with mandatory requirements to report each grade       over the transit benefit program Government-
crossing collision to FRA’s accident reporting         wide by (1) including the transit benefit program
system by (a) developing and implementing an           in agencies’ assessments of their internal controls
action plan for conducting periodic reviews of the     during the A-123 process, (2) requiring Federal
grade crossing collision records maintained by         employees to annually recertify their eligibility,
each railroad, including promptly notifying the        (3) reviewing and applying appropriate lessons
responsible railroads when unreported collisions       learned in other Government programs,
are identified; (b) testing random samples of          (4) developing and enforcing consistent
the railroads’ grade crossing collision reports to     disciplinary policies, and (5) mandating use of the
determine whether the information is accurate,         SmartBenefits program throughout Government
timely, and complete, including comparing such         agencies in the National Capital Region.



		                                                                         Surface and Maritime Programs	 21
Audits and Investigations (continued)


INVESTIGATIONS
Pennsylvania Transit Contractor and                    U.S. District Court judge in Madison, Wisconsin,
Its Owner Debarred For 3 Years in                      on May 23, 2007, to pay a $1,000 fine for making
DBE Fraud Case                                         false statements to the Wisconsin Department
April 17, 2007                                         of Transportation (WisDOT) on payroll reports
                                                       totaling $22,000 he submitted for hauling services
The Federal Transit Administration (FTA)               performed on a federally funded highway project
debarred Michael Tulio and his company, Tulio          near Winchester, Wisconsin. Kasner was also
Landscaping, for 3 years on April 17, 2007, as a       ordered to serve 3 months in jail and 2 years
result of their June 2006 convictions on conspiracy    supervised release. He pleaded guilty on March 14
and fraud charges involving FTA’s Disadvantaged        to charges of failing to pay two dump truck drivers
Business Enterprise (DBE) program. Tulio paid a        local prevailing wages—as required under Federal
DBE-certified hauling firm, Pullins Trucking, for      law—in 2002 and 2003. WisDOT suspended
the illicit use of its name to secure contracts with   Kasner and his company after his October 2006
the Southeastern Pennsylvania Transportation           indictment. FHWA suspended and debarred Kasner
Authority (SEPTA), an FTA grantee. DOT/OIG’s           and the firm for three years. This investigation was
investigation determined that Tulio submitted false    conducted with assistance from WisDOT.
checks, reports, and correspondence claiming that
Tulio used Pullins Trucking to perform hauling         Owner of Long Island Paving Company
services, when in fact Tulio Landscaping used          Sentenced to 8 Months in Jail
its own employees. The Tulio contracts totaled         June 18, 2007
approximately $418,000, with the DBE fraud
amount involving $68,000. Tulio was sentenced          James K. Haney, president of Suffolk Asphalt
on December 26, 2006, in U.S. District Court in        Supply, Inc., was sentenced on June 18, 2007, in
Philadelphia, Pennsylvania, to serve 15 months in
prison and 24 months supervised release and pay
a $40,000 fine. His company was fined $103,000.
The Tulio investigation was part of a larger case
involving $1.27 million of fraud on federally
funded SEPTA construction contracts JMG
Excavating (JMG) executed. JMG pleaded guilty to
mail fraud charges in May 2006, and FTA debarred
JMG and its owner for 5 years. This investigation
was conducted jointly with the Federal Bureau of
Investigation and with assistance from FTA.

Owner of Wisconsin Dump Truck Firm
Sentenced For Submitting False Statements
on Federal Highway Contracts
May 23, 3007

Darrell Kasner, owner of Kasner’s Transport, Inc. in
Aprin, Wisconsin, was ordered by a


22	 Semiannual Report to Congress
U.S. District Court in Central Islip, New York, to     based company—SBH Corporation—arranged
8 months in jail and 3 years supervised release for    for the transportation of 10 metric tons of sodium
his role in rigging bids on various roadway projects   metal from China to the United States. Evertson
sponsored by the Suffolk County Department of          initially transported the sodium metal from its
Public Works and the Town of Brookhaven, New           port in Seattle, Washington, to Salmon, Idaho.
York. Haney also agreed to forfeit $2.3 million        On August 1, 2002, Evertson arranged for the
to the U.S. Government and pay $326,343 in             transportation of the sodium metal from a
restitution to Suffolk County and Brookhaven.          manufacturing facility in Salmon, Idaho to a storage
The investigation found that between July 2003         site in Salmon. The sodium metal was transported
and September 2005, Haney, Suffolk Asphalt             via common carrier over public roads with no
Supply, and certain other contractors conspired        protective measures taken. Neither Evertson nor
to manipulate the awarding of Suffolk County           the carrier he retained had the appropriate shipping
contracts for road maintenance and repair and          papers for the hazardous material. In addition,
Brookhaven contracts for asphalt for road repairs      the material was not placarded, labeled, packaged,
by artificially inflating contract costs through       or secured in accordance with regulations. On
bid rigging. The bidding process was controlled        September 26, 2006, a Federal grand jury in
by agreements among the defendants as to bid           Pocatello, Idaho, indicted Evertson on one count
prices and division of projects. New York law          of transportation of hazardous materials and two
requires that public works projects be awarded         counts of storage and disposal of hazardous waste.
in a competitive bidding process to the lowest         Sentencing is scheduled for October 22, 2007.
responsible bidder. Companies seeking to win
contracts must certify that they have not colluded     Three Texas Men Indicted on Conspiracy
or shared information about their bids with            Charges Alleging They Avoided Paying
potential competitors. In response to a DOT/OIG        $2.6 Million in Federal Motor Fuel Taxes
referral, the Federal Highway Administration           to the Highway Trust Fund
suspended Haney and Suffolk Asphalt.                   July 9, 2007

Federal Jury Convicts Alaska Resident of               On July 9, 2007, Sidney B. Baldon, Jr., Tracy D.
Illegally Transporting Hazardous Material              Diamond, and Yousef I. Abuteir were charged
In Idaho                                               in a nine-count indictment with conspiracy and
June 18, 2007                                          tax evasion in connection with a scheme to avoid
                                                       paying Federal motor fuel excises taxes. Baldon
Krister Sven Evertson of Wasilla, Alaska, was          owned and operated Mid-Coast International
convicted on June 18, 2007, by a Federal jury          (MCI), a transporter of kerosene and other fuel
in Pocatello, Idaho, of charges of illegally           products in Houston, Texas. Diamond was an
transporting, storing, and disposing of sodium         officer of MCI, and Abuteir purchased products
metal, a hazardous material used to manufacture        from MCI for resale to Houston-area retail outlets.
sodium borohydride—an industrial chemical
used to manufacture pharmaceuticals. DOT/OIG           According to allegations contained in the
investigated this case with the Environmental          indictment, between July 2002 and November 2003,
Protection Agency’s Criminal Investigations            MCI allegedly purchased more than $10 million in
Division.                                              kerosene fuel from Calcasieu Refining Company,
                                                       falsely representing in letters to the company that
The DOT/OIG investigation focused on allegations       the fuel was purchased for export to Mexico only,
that Evertson, through his now defunct Nevada-         thus no excise taxes were assessed or paid by MCI.

		                                                                         Surface and Maritime Programs	 23
Audits and Investigations (continued)

The untaxed fuel was then transported from              in January 2006, along with five ConnDOT
Louisiana to MCI locations in Channelview and           employees. One state employee previously pleaded
Houston, Texas, where the fuel was then mixed           guilty, one agreed to pretrial diversion, and another
with other materials including middle distillate oil,   was acquitted following trial. The remaining
a bi-product of asphalt production. This middle         two are awaiting trial. In July 2005, the Federal
distillate oil was allegedly obtained through           Highway Administration required ConnDOT to
agreements facilitated by Abuteir between S.A.S.        reimburse $6.9 million in Federal-aid funding for
Transport, Inc., Southwest Solvents, and MCI.           inadequately justifying sole source procurements.
The untaxed blended fuel was then allegedly             Sentencing is scheduled for October 2.
transported by drivers acting on instructions from
Abuteir to retail gas stations in the Houston area,     Michigan Cement Contractor Sentenced to
where it was falsely sold as taxable motor fuel.        12 Months in Prison and Fined for Perjury
Backdated invoices falsely reflecting the sale of       and Obstruction of Justice Charges
kerosene purchased by MCI directly to customers         August 9, 2007
in Mexico were allegedly prepared by employees of
MCI upon Diamond’s instructions.                        Alan Pighin, president of Century Cement
                                                        in Wyandotte, Michigan, was sentenced on
Federal arrest warrants for the men were executed       August 9, 2007, in U.S. District Court in Detroit,
on July 10, 2007. This is an ongoing investigation      Michigan, to serve 12 months in prison, followed
with the Internal Revenue Service’s Criminal            by 2 years supervised release, and pay a $5,000 fine
Investigation Division and the Texas State              for perjury and obstruction of justice. On April
Comptroller’s Office.                                   16, jurors had found Pighin guilty of committing
                                                        two acts of perjury by lying under oath to a Federal
Road Contractor and Its President Convicted             grand jury when he denied (1) paying money to
in Connecticut Bid-Rigging Case                         City of Detroit inspectors in connection with
August 8, 2007                                          concrete work he was performing and (2) providing
                                                        concrete work for government employees other
Marino Brothers Inc. of Peabody, Massachusetts,         than the driveway of a Warren, Michigan, police
and its president, Robert Marino, were convicted        officer. Jurors also found that Pighin obstructed
on August 8, 2007, in Connecticut State Superior        justice by asking a city inspector to falsely testify
Court in New Britain, of two counts each of             at the trial that Pighin installed a driveway at the
conspiracy to commit bid rigging. Marino and            inspector’s house in exchange for masonry work
his company bribed Connecticut Department               to be performed by the inspector. Testimony at
of Transportation (ConnDOT) employees with              trial revealed that Pighin’s company installed
gifts and colluded with a former ConnDOT                the $6,000 driveway without receiving payment.
maintenance manager to make Marino’s                    Pighin was indicted in July 2006 following an
company the sole-source contractor on                   investigation of his statements during a September
approximately $6.1 million in cracksealing              2002 grand jury appearance, and again in January
contracts on Connecticut highways in 1997 and           2007 in a superseding indictment, which set out
from 2000 to 2004. The contracts in question            the above charges. This investigation is part of an
received Federal funds. A DOT/OIG investigation         ongoing Federal Bureau of Investigation Office of
disclosed that ConnDOT’s maintenance division           Inspector General investigation of fraud within the
routinely circumvented the normal bidding               City of Detroit’s engineering department, which
process to award contracts to the company. A State      administers State of Michigan road construction
grand jury indicted Marino and his company

24	 Semiannual Report to Congress
contracts in the city. Pighin has been referred to the   guilty on May 31 to charges of conspiring to
Federal Highway Administration for suspension            commit wire fraud and failing to properly
and debarment proceedings. Century Cement was            placard, store, transport, transfer, and handle fuel
not charged.                                             transported from terminals at Port Everglades,
                                                         Florida, to customers between Key West and Fort
Former Employees of Fuel Hauling Company                 Pierce, Florida. Another employee, Noel Delgado-
Sentenced in Hazardous Material Case                     Hernandez, was sentenced to 5 years probation on
August 9, 2007                                           August 3 as a result of his guilty plea on similar
                                                         charges. Genesis and its director, Ricardo Mejia,
Three employees of Genesis Petroleum, Inc., a            were scheduled for sentencing on September 10,
Fort Lauderdale, Florida, trucking company, were         but Mejia failed to appear and was subsequently
sentenced on August 9, 2007, by a U.S. District          indicted for failure to appear and is considered
Court judge in Fort Lauderdale to each serve             a fugitive. Company drivers submitted false
5 years probation as a result of their prior guilty      delivery receipts stating they had delivered fuel to
pleas to charges of violating Federal hazardous          their customers, when in fact they had diverted
material transportation (hazmat) regulations             11,000 gallons of fuel to illegal tanks located in a
by hauling and storing gasoline and diesel fuel          vacant lot Mejia leased near Port Everglades. The
without required safeguards. Leonel San Martin,          fuel was used by Genesis employees and their
Alberto Alvarez, and Yoel Betancourt pleaded             relatives and friends for personal and business




		                                                                           Surface and Maritime Programs	 25
Audits and Investigations (continued)

use. This case was investigated jointly with the        an ongoing civil complaint. DOT/OIG investigated
Internal Revenue Service, the U.S. Immigration          this case with assistance from the Massachusetts
and Customs Enforcement, and several Broward            Highway Department.
County agencies.
                                                        Ohio Construction Company Owner
Massachusetts Road Contractor Fined                     Sentenced and Ordered to Pay Over
$3 Million for Falsifying Asphalt Tickets               $1 Million in Fines and Restitution
August 9, 2007                                          August 23, 2007
P.A. Landers, Inc., a Plymouth, Massachusetts,          Michael Lignos, co-owner of LM Lignos
road construction contractor, was ordered by a          Enterprises in Cleveland, Ohio, was sentenced
U.S. District Court in Boston, Massachusetts,           on August 23, 2007, in U.S. District Court in
on August 9, 2007, to pay a $3 million fine as a        Cleveland, Ohio, to serve 21 months in prison and
result of its conviction earlier this year on charges   3 years probation and ordered to pay $1,058,422
of providing fake and inflated asphalt tickets for      in fines and restitution. Lignos bribed Ohio
paving projects. The company was also ordered           Department of Transportation (ODOT) bridge
to pay $332,686 in restitution to the Federal           inspectors to overlook false certifications regarding
Highway Administration (FHWA) and Federal               the quality and quantity of painting work his
Transit Administration, the Commonwealth of             company performed on federally funded highway
Massachusetts, the Massachusetts Bay Transit            projects.
Authority, and the towns of Chatham and
Sandwich, Massachusetts. Former company                 The investigation revealed that Lignos gave two
president Preston Landers was ordered to serve          ODOT inspectors a trip to Las Vegas in 2001
42 months in prison and pay a $150,000 fine             in exchange for their allowing the company to
and $332,686 in restitution. Gregory Keelan, the        paint bridges in inclement weather and without
company’s former vice president, was ordered to         prior scraping, sanding, and priming of the
serve 30 months in prison and pay a $10,000 fine        bridge surfaces. He subsequently gave one of
and $332,686 in restitution. The company and            the inspectors, Ralph F. Smith III, an additional
its two former officials were convicted by a            $4,000. Smith pleaded guilty in April 2006 to
Federal jury in May 2007 of charges of conspiracy,      charges of making false statements regarding
mail fraud, and making false claims on                  highway projects and was sentenced on July 10 to
$18 million in paving projects between 1996 and         4 months imprisonment and 60 months probation
March 2003. Landers and Keelan directed company         and ordered to pay ODOT $400,000 in restitution.
employees to generate false and inflated weight         The other inspector was not charged, but resigned
tickets for submission to State and municipal           from ODOT. Smith previously pleaded guilty
agencies as the basis for payment. Several of the       in 2003 to charges of making false statements
paving projects—including Route 44 between              regarding inspections he performed on three other
Plymouth and Taunton, Massachusetts—                    highway bridge painting projects and served
received Federal funds. The company fraudulently        24 months probation. Lignos also pleaded guilty
overbilled 25 local communities and the State and       to charges involving a 2004 contract to repair a
Federal governments of an estimated $4 million.         bridge in Portage County, Ohio. He admitted to
FHWA suspended the company and the two                  stealing $23,959 from the company’s employee
former officials in November 2005. Debarment            benefit plan by failing to report 1,811 hours worked
proceedings are pending. The company also faces         by union carpenters to the benefit plan, resulting
                                                        in an underpayment of $23,959 in fringe benefits.

26	 Semiannual Report to Congress
Lignos also admitted to failing to withhold Federal   his company were referred to the Federal Highway
Insurance Contributions Act (FICA) taxes on           Administration for debarment consideration.
23 employees, resulting in the underreporting of
$66,000 in income to the Internal Revenue Service     Guard Rail Contractor Sentenced for Using
on his corporate tax returns. His wife, Maria         Substandard Construction Materials on
Lignos, who was co-owner of the now defunct           Pennsylvania Highway Projects
company, pleaded guilty on June 1 to mail fraud       September 10, 2007
charges. Maria Lignos fraudulently collected
unemployment insurance benefits from the State        George Smith, Jr., owner and operator of
of Ohio by falsely stating on her application that    Statewide Hi-Way Safety Incorporated (Statewide)
she had been employed at LM Lignos Enterprises,       in Hammonton, New Jersey, was sentenced in
when, in fact she had not. Maria Lignos was           U.S. District Court in Philadelphia, Pennsylvania,
sentenced on August 23 to 2 years probation.          on September 10, 2007, to 27 months incarceration
                                                      and 36 months supervised release and ordered to
This joint investigation with the Internal Revenue    pay $650,000 in restitution for using substandard
Service’s Criminal Investigation Division, the        construction materials on federally funded
Federal Bureau of Investigation, and the U.S.         highway projects in Pennsylvania. In April 2007,
Department of Labor is part of a larger, ongoing      Mr. Smith pleaded guilty to one count of mail
investigation of contract and grant fraud in the      fraud and admitted that between September
ODOT bridge inspection program. To date,              2002 and April 2005, Statewide used substandard
14 individuals (contractors and State inspectors)     steel in guard rail components and provided
and four companies have been convicted and            false certifications to prevent State authorities
will be referred to the Federal Highway               from detecting the illicit activity. The use of
Administration for debarment.                         construction materials other than those specified
                                                      in the contract resulted in a loss to the Federal
President of New York Construction                    Highway Administration (FHWA) of $683,303.
Company Sentenced for Money Laundering                Smith and Statewide have been referred to FHWA
Conspiracy Related to Roadway Milling                 for suspension and debarment consideration.
Contract                                              DOT/OIG investigated this case jointly with
September 7, 2007                                     FHWA and the Pennsylvania Office of Inspector
                                                      General.
Thomas Costa, President of Costa Construction
in Long Island, New York, was sentenced on            Two Florida Men Plead Guilty to Producing
September 7, 2007, in U.S. District Court in          Fraudulent Driver’s Licenses
Central Islip, New York, to serve 1 year and a        September 13, 2007
day incarceration and 3 years probation, as well
as forfeit $250,000 to the U.S. Government.           Levern Cooper and Pierre Angrand pled guilty
In October 2006, Costa pleaded guilty to an           on September 13, 2007, in U.S. District Court in
indictment charging him with money laundering         Miami, Florida, to one count each of knowingly
conspiracy. From 2002 to 2003, Costa and              and willfully manufacturing and distributing
other defendants conspired to bribe a roadway         fraudulent identification documents. The
construction inspector with approximately             investigation revealed that Cooper and Angrand
$25,000. In exchange, the inspector allowed them      counterfeited State of Florida driver’s licenses,
to over bill the City of New York $1.4 million on a   commercial driver’s licenses (some with hazardous
$16 million roadway milling contract. Costa and       material endorsements), and identification cards.

		                                                                       Surface and Maritime Programs	 27
Audits and Investigations (continued)

Sentencing for Cooper and Angrand is scheduled        guilty to these charges on May 31. Johnson was in
for January 17, 2008. This investigation was          charge of ensuring that ready-mix concrete met
conducted jointly with the Federal Bureau of          contract specifications for a $5.7 million bridge
Investigation and the Hollywood, Florida Police       construction project over the Chatuga River
Department.                                           on U.S. Highway 76 in Oconee County, South
                                                      Carolina. The investigation found that Johnson
Former South Carolina DOT Inspector                   allowed concrete to be poured before calculating
Sentenced to 3 Years Probation for Making             if the concrete was within tolerances, as required
False Statements Regarding a Federally                by State regulations. Johnson also falsified four
Funded Highway Project                                reports indicating the concrete met contract
September 13, 2007                                    specifications, when in fact it did not. SCDOT
                                                      terminated Johnson from employment, and State
Keith A. Johnson, a former inspector for the South    officials subsequently inspected the concrete and
Carolina Department of Transportation (SCDOT),        verified that it was within tolerances. DOT/OIG
was sentenced on September 13, 2007, to serve         investigated this case jointly with the Federal
3 years probation and ordered to pay a $400 special   Bureau of Investigation and the South Carolina
assessment for making false statements regarding      Law Enforcement Division.
a federally funded highway project. He pleaded




28	 Semiannual Report to Congress
Competition and Economic Analysis




Audits
Growth in Highway Construction and                    found that highway construction and maintenance
Maintenance Costs                                     costs nationwide grew approximately three times
September 26, 2007                                    faster from 2003 through 2006 than their fastest
                                                      rate during any 3-year period between 1990 and
We issued our report on the growth in highway         2003, substantially reducing the purchasing power
construction and maintenance costs, which             of highway funds. These increases are largely the
was requested by the House Committee on               result of escalation in the costs of commodities
Transportation and Infrastructure. Our audit          used in highway projects, such as steel and
objectives were to determine (1) the extent of        asphalt, and reflect structural, not transitory,
recent cost increases for highway construction        economic changes. Consequently, we expect these
and maintenance projects, (2) whether the cost        commodity costs to remain elevated and possibly
increases are the product of transitory factors or    continue expanding in the near term. Finally, we
indicative of longer term structural changes that     found that highway project cost growth varied
need to be incorporated into future transportation    across states due primarily to differences in costs
funding plans, and (3) the degree to which the cost   of transporting commodity inputs.
increases are subject to regional variations. We




		                                                                   Competition and Economic Analysis	 29
Audits and Investigations (continued)

Amtrak’s Board of Directors Provides                management; and (5) whether the Board members’
Leadership to the Corporation but Can               expenses comply with corporate guidelines and
Improve How It Carries Out Its Oversight            whether those guidelines ensure the prudent use
Responsibilities                                    of corporate resources. We found that the Board
September 14, 2007                                  complies, with limited exceptions, with the rules
                                                    and procedures delineated in its corporate bylaws
We issued our report on Amtrak’s Board of           and Statement of Policy. We also found that the
Directors. Our audit was conducted at the request   Board established a strategic direction for Amtrak
of Representatives Brian Baird, Elijah Cummings,    in April 2005 but did not fully implement it. In
and Jerrold Nadler. The objectives of our audit     June 2007, the Board adopted a revised plan for
were to determine (1) the rules, procedures, and    FY 2007 through FY 2008. We also found that the
authorities under which the Board operates;         Board has the tools to conduct oversight and hold
(2) whether the Board has followed established      management accountable and provides oversight of
processes and procedures; (3) whether the           management’s actions. However, the Board could
Board has set long-term goals and performance       improve its effectiveness by implementing some
objectives; (4) whether the Board’s processes and   corporate governance best practices. Finally, we
procedures are sufficient for ensuring oversight    found that the Board members’ expenses comply
of, and requiring accountability from Amtrak        with corporate guidelines and are reasonable.




30	 Semiannual Report to Congress
Third Quarterly Report on Amtrak’s FY 2007             would likely reduce and may eliminate the amount
Operational Reforms Savings and Financial              by which Amtrak is ahead of its budget projections.
Performance
July 31, 2007                                          Second Quarterly Report on Amtrak’s FY
                                                       2007 Operational Reforms Savings and
As mandated by the House FY 2007                       Financial Performance
Appropriations Act for the Department of               May 1, 2007
Transportation, we issued our third quarterly
report to the House and Senate Appropriations          As mandated by the House FY 2007 Appropriations
Committees on Amtrak’s savings from operational        Act for the Department of Transportation, we
reforms and year-to-date financial performance.        issued our second quarterly report to the House
Once the reforms are more fully implemented,           and Senate Appropriations Committees on
Amtrak is likely to realize $45.6 million of the       Amtrak’s savings from operational reforms and
$61 million in FY 2007 reform savings it originally    year-to-date financial performance. Once the
anticipated and $224 million of the $550 million       reforms are more fully implemented, Amtrak is
in FY 2011 reform savings it originally anticipated.   likely to realize $39 million of the $61 million in
Amtrak continues to make progress on several of        FY 2007 reform savings it originally anticipated and
its strategic reforms, notably in improved Acela       $224 million of the $550 million in FY 2011 savings
service and in food and beverage service. At the       originally anticipated. In addition, Amtrak was
same time, it has made little or no progress or        $99 million ahead of its budget through March 2007.
fallen behind schedule on others. In addition,         Amtrak continues to make progress on many of its
Amtrak was $109 million ahead of its budget            strategic reforms. Through January 2007, Amtrak
through May. It is likely to end the year with a       achieved $13.1 million in operational reform
cash operating loss of approximately $390 million      savings. However, Amtrak has made little or no
and a cash balance of nearly $300 million. This        progress on the more challenging strategic reforms,
favorable financial performance reflects, in part,     such as network restructuring, fully allocated cost
the absence of a labor settlement. A settlement,       recovery from states, and labor reform. Further,
while important to the operation of Amtrak,            Amtrak slowed the overall pace of reforms this year.




		                                                                     Competition and Economic Analysis	 31
Audits and Investigations (continued)


INVESTIGATIONS
Consultant Sentenced to 14 Months in                    is conducting this investigation jointly with the
Prison and Fined Nearly $26,000 for Role in             Federal Bureau of Investigation and the Internal
Philadelphia International Airport Fraud Case           Revenue Service.
April 2, 2007
                                                        Georgia Man Sentenced To Jail And Ordered
Joseph Moderski, a consultant for Sky Sites,            To Pay Nearly $3.7 Million In Restitution
Inc., was ordered by a U.S. District Court in           For Fraudulent Sales of Luxury Imported
Philadelphia, Pennsylvania, on April 2, 2007, to        Automobiles
serve 14 months in prison and pay $25,833 in            June 14, 2007
fines and restitution for his role in a corruption
scheme involving Federal Aviation Administration        Hassan Ali Raza of Sandy Springs, Georgia,
(FAA)-regulated airport advertising contracts at        was ordered by a U.S. District Court judge in
the Philadelphia International Airport (PHL).           Atlanta, Georgia, on June 14, 2007, to serve 3 years
Moderski pleaded guilty in September 2006 to            and 5 months in prison and pay $3,698,244 in
charges of conspiracy, mail fraud, and wire fraud       restitution to 23 consumers he defrauded through
related to illegal contributions totaling $40,000 to    the illegal importation of luxury automobiles.
political action committees supporting the Mayor        As part of his guilty plea on March 9, Raza
of Philadelphia. Moderski, along with a former          admitted to importing luxury vehicles from
Sky Sites DBE subcontractor and two former Sky          Germany, including seven Ferrari sports cars and
Sites executives, agreed to defraud Sky Sites using a   a Mercedes-Benz coupe, by (1) falsely declaring
sham $10,000 consulting bonus paid to Moderski          that the vehicles already met National Highway
and a phony $30,000 invoice. Moderski and the           Traffic Safety Administration (NHTSA) and
others then illegally donated the money to the          Environmental Protection Administration (EPA)
political action committees in 2000 and 2001.           standards or (2) claiming that the vehicles were
Pennsylvania law prohibits corporations from            exempt from U.S. standards because they were
contributing to State political action committees.      owned by visiting foreign nationals. As a result,
FAA suspended Moderski and his consulting               victims received contraband automobiles that
company, JC Moderski, Inc. Moderski remains             they could not title or drive and that required tens
under Federal indictment on separate charges            of thousands of dollars in work to comply with
of defrauding the airport and JC Decaux—                U.S. safety and emission standards. This case was
the company that acquired Sky Sites during the          investigated jointly with the U.S. Department of
investigation and now retains the advertising           Homeland Security’s Immigration and Customs
concession at PHL. Sentencing for the remaining         Enforcement and the EPA Office of Inspector
charges is scheduled for October 15. DOT/OIG            General, with assistance from NHTSA.




32	 Semiannual Report to Congress
Financial and Information Technology




Audits
DOT Delphi Financial Systems Control                   effectiveness in the areas of vulnerability
September 13, 2007                                     assessments, workstation administration, and
                                                       intrusion detection and reporting.
We issued our final report on controls over the
Delphi Financial Management System operations.         Volpe Center’s Information Technology
OIG hired a CPA firm to perform this review,           Security and Resource Management
which OMB requires for agencies designated as          Activities
Federal Service Providers to provide cross-agency      August 1, 2007
services. The audit concluded that management’s
description of controls presents fairly, in all        We issued a final report on the review of Volpe
material respects, the controls that have been         Center’s IT security and resource management.
placed in operation as of May 31, 2007. In addition,   While Volpe has established adequate firewall
controls are suitably designed and were operating      security to protect its IT infrastructure from
effectively on 9 out of 10 control objectives          intrusion or unauthorized access from the Internet,
during the period from October 1, 2006, through        its computers remained vulnerable to attacks by
May 31, 2007. The exception is logical access          insiders—employees, contractor staff, etc. Also,
controls because management has not completed          Volpe did not test its capability to resume system
the move of the Delphi servers to a more secure        operations at its designated recovery site. In case of
environment and did not operate with sufficient

		                                                                    Financial and Information Technology	 33
Audits and Investigations (continued)

disruptions, both Volpe and its customer systems     resources. Volpe management has concurred with
might be affected. Finally, Volpe has made good      our conclusions and stated that the majority of
progress in leveraging departmental resources        the recommendations have already been either
for more efficient operations. We identified two     fully or partially addressed. It is developing
additional opportunities that could enable Volpe     comprehensive plans to implement all remaining
to further reduce costs by using departmental        recommendations.




Investigations
Owner of New York Transit Contractor                 suspended Savvides and Excel Group after
Pleads Guilty to Money Laundering                    Savvides was indicted in May 2005. As part of the
Conspiracy                                           plea deal, Savvides has agreed to forfeit $393,576
April 26, 2007                                       to the U.S. Government. The company was not
                                                     charged. Savvides’ sentencing has not yet been
Andre Savvides, a resident of Dix Hills,             scheduled. This investigation was conducted by
New York, and the majority owner of Excel            DOT/OIG and other members of the Long Island
Group, Inc.—a Mineola, New York-based                Federal Construction Fraud Task Force.
nonminority general contractor—pleaded guilty
on April 26, 2007, in U.S. District Court in         President of Central Artery/Tunnel Project
Central Islip, New York, to a charge of conspiracy   DBE Subcontractor Pleads Guilty to Tax
to launder money. The investigation revealed         Evasion and False Statements
Savvides conspired with a Disadvantaged              May 14, 2007
Business Enterprise (DBE) subcontractor to
create false documentation regarding the             Pamela Ciampi, president of PT Corporation (PT),
percentage of work Excel was subcontracting          a demolition contractor who was also certified as
to that DBE firm. Contractors working on             a Disadvantaged Business Enterprise (DBE) with
transportation projects receiving Federal funds      the Commonwealth of Massachusetts, pleaded
are generally required to subcontract a portion      guilty on May 14, 2007, to two counts of tax evasion
of their work to DBE firms. Excel Group received     before a U.S. District Court judge in Boston,
a $37.9 million contract in 1998 from the New        Massachusetts. PT was a DBE subcontractor on five
York State Metropolitan Transportation Authority     federally funded Central Artery/Tunnel (CA/T)
(MTA), a DOT grantee, to rehabilitate the            Project contracts valued at approximately
Broadway/East New York Subway Complex. The           $42 million. Ciampi failed to report $727,000
company wrote two-party checks totaling $393,576     in income in 2002 and 2003, which would have
payable to TLH, a DBE-certified subcontractor,       resulted in an additional tax owed of approximately
and to companies supplying materials for the         $250,000. Ciampi also pleaded guilty to falsifying
project. A TLH official endorsed the checks, but     the 2003 PT corporate tax return she submitted
TLH received none of that money. Savvides used       to the Commonwealth in order to remain eligible
the checks to falsely inflate payments to TLH in     for the DBE program. Under the Federal DBE
monthly reports submitted to MTA regarding the       program, the individual net worth of
percentage of work Excel was subcontracting to       DBE-certified business owners is capped at $750,000.
the DBE firm. The Federal Transit Administration     The corporate tax return Ciampi submitted did

34	 Semiannual Report to Congress
not disclose the $674,500 paid in salary to Ciampi.   to one count of subscribing to a false tax return,
As part of her plea, Ciampi agreed to a 3-year        was also ordered to serve 2 years probation and
debarment from Federal contracts. Sentencing is       4 months home confinement. Testa falsified his
scheduled for December 10. DOT/OIG investigated       personal tax returns for calendar years 2001
this case jointly with Internal Revenue Service’s     through 2004 by not reporting more than $282,000
Criminal Investigation Division and the U.S.          in receipts from his contracting business, Merritt
Department of Labor Office of Inspector General.      Builders, and failing to pay over $100,000 in
                                                      income tax. Merritt Builders was awarded a
Connecticut Contractor Fined $230,000 for             $300,000 contract by ConnDOT to renovate office
Failing to Disclose Income on New Haven               space in New Haven’s Union Station in 2003.
Union Station Renovation Project                      To circumvent the competitive bidding process
May 16, 2007                                          and direct the project to Testa’s company, two
                                                      ConnDOT officials instructed another contractor
Louis F. Testa, of Woodbridge, Connecticut, was       to prepare two fake bids in excess of Testa’s bid.
ordered on May 16, 2007, by a U.S. District Court     Testa was instructed by the ConnDOT officials
judge in New Haven, Connecticut, to pay $230,000      to pay the contractor $3,000 and purchase big-
in fines, restitution, and taxes in connection with   screen televisions, refrigerators, and computers
his role in a scheme to defraud the Connecticut       for ConnDOT employees. These items were billed
Department of Transportation (ConnDOT) on a           to ConnDOT through the renovation project. In
renovation project at New Haven’s Union Station.      February, the Federal Transit Administration (FTA)
Testa, who pleaded guilty on October 16, 2006,        debarred Testa for 3 years. FTA also debarred

		                                                                 Financial and Information Technology	 35
Audits and Investigations (continued)

the two ConnDOT officials and the contractor,           $6.8 million in cash so that BMAC could satisfy
who had all previously pleaded guilty and been          DOT requirements. In actuality, BMAC’s cash
sentenced. DOT/OIG investigated this case jointly       balance was approximately $450,000, far short
with the Federal Bureau of Investigation and            of the amount needed to meet the requirements.
Internal Revenue Service’s Criminal Investigation       The investigation was initiated in August 2005
Division, with audit assistance from ConnDOT.           based on a referral by the Office of Aviation and
                                                        International Affairs.
Former Boston-Maine Airways Corporation
Official Sentenced to 6 Months in Prison and            Central Artery/Tunnel Project Subcontractor
1 Year of Probation for Falsifying Financial            Manager Sentenced for Role in False Labor
Documents Filings to DOT                                Rate Charges
September 18, 2007                                      September 26, 2007

John Nadolny, former general counsel and                Richard Joyce, a former assistant project
senior vice president of Boston-Maine Airways           manager for Mass Electric Construction
Corporation (BMAC) in Portsmouth, New                   Company (a subcontractor to McCourt/
Hampshire, was sentenced on September 18, 2007,         Obayashi—the joint venture on the Central
in U.S. District Court in Concord, New Hampshire,       Artery Tunnel (CA/T) Project’s tunnel) was
to serve 6 months in prison and 1 year of probation     sentenced in U.S. District Court in Boston,
for submitting false documents to DOT’s Office          Massachusetts, on September 26, 2007, to 2 years
of Aviation and International Affairs in May 2005       probation and fined $3,000. Joyce participated in
in support of the airline’s application for authority   a scheme to defraud the U.S. Government of an
to operate additional large aircraft. Air carriers      estimated $80,000 by misclassifying apprentice-
seeking to operate additional aircraft must certify     level electricians as journeymen electricians
that they have sufficient financial resources to        on daily reports used to compile costs for time
support the expanded operations and satisfy DOT         and materials change orders. The results of this
working capital requirements. Nadolny, who              investigation will be furnished to the Federal
pleaded guilty in April 2007, submitted documents       Highway Administration for suspension/
to DOT indicating that the airline possessed            debarment consideration.




36	 Semiannual Report to Congress
Department-Wide Issues




Audits
Review of Congressional Earmarks Within              within FHWA, FTA, and FAA—agencies that
Department of Transportation Programs                accounted for 99 percent of these earmarked
September 7, 2007                                    projects—disclosed that 7,724 of the 7,760 projects
                                                     either were not subject to the agencies’ review
We issued our review of congressional earmarks       and selection processes or bypassed the states’
within DOT programs. In August 2006, Senator         normal planning and programming processes. We
Tom Coburn of the Senate Committee on                reviewed earmarked projects that were evaluated
Homeland Security and Governmental Affairs           as “highest” priority projects and would have
requested that we conduct an independent analysis    been fully funded regardless of being earmarked.
of congressional earmarks. Consistent with Senator   However, many earmarked projects considered by
Coburn’s request, we determined (1) the total        the agencies as low priority are being funded over
number and amount of earmarks within DOT for         higher priority, non-earmarked projects; other
FY 2006, (2) the inclusion of earmarks in DOT’s      earmarks are providing funds for projects that
annual planning and project evaluation processes,    would otherwise be ineligible. We did not make
and (3) the effects of earmarks on DOT’s mission     any recommendations in this report as the nature
and goals. Overall, we identified 8,056 earmarked    of the review was to conduct an independent
projects within DOT’s programs that received more    analysis of the amount and impact of congressional
than $8.54 billion for FY 2006. Our review of        earmarks for the most recent fiscal year.
7,760 earmarked projects valued at $8.05 billion

		                                                                             Department-Wide Issues	 37
Audits and Investigations (continued)

More Incurred-Cost Audits of DOT
Procurement Contracts Should Be Obtained
August 29, 2007

We issued our report on incurred-cost audits
of DOT procurement contracts. The report
discusses DOT’s initiative to use a new structured
approach for obtaining incurred-cost audits
of procurement contracts. However, we found
that DOT’s Operating Administrations had
made little progress in obtaining these audits.
Additionally, we found that although DOT has
recovered over $4 for every audit dollar spent
on these audits, contracting officers have not
taken consistent actions in a timely manner to
recover overpayments made to contractors. We
                                                     Following our notification of the July theft,
reported that DOT has the potential to recover
                                                     members of the Florida Congressional Delegation
between $8 million and $10.3 million more in
                                                     requested that we examine our procedures for
these overcharges. We recommended that DOT
                                                     handling and storing such information and
require Operating Administrations to review
                                                     identify steps taken to ensure that such a breach
their fiscal year 2007 audit plans and document
                                                     would not happen again. As part of our efforts,
revisions and ensure that audits are obtained and
                                                     we employed ID Analytics, Inc. to monitor the
audit reports are resolved in accordance with
                                                     SPII information to determine if it was being
departmental guidance. DOT generally agreed
                                                     exploited. We have now received four reports from
with our recommendations and also agreed that
                                                     ID Analytics and it appears that the loss of control
our estimated savings was reasonable.
                                                     has not resulted in identity theft. We identified
Analysis of Loss of Control Over Sensitive           three interrelated factors that contributed to the
Personally Identifiable Information and              loss of our control over the SPII stored on the
                                                     laptops: (1) measures taken to protect the physical
Follow-Up Actions To Strengthen its
                                                     security of the laptops were insufficient; (2) the
Protection
                                                     data on the laptops had been decrypted
August 28, 2007                                      to preserve the data during an upgrade to the
We issued a memorandum on our analysis of            OIG’s information technology system; and
the July 27, 2006, theft of an OIG laptop from a     (3) SPII databases were stored on laptop
government vehicle in Doral, Florida, and a prior    computers, which are inherently less secure
theft on April 24, 2006, in a hotel conference       than computers that operate in a centralized
room in Orlando, Florida. Both laptops contained     environment. The memorandum also sets forth
Sensitive Personally Identifiable Information        the steps we have taken to improve the physical
(SPII) information on 138,000 individuals that       security of our laptops and improve how sensitive
heightened their potential risk of identity theft.   personal information is handled and stored.




38	 Semiannual Report to Congress
Investigations
Former FHWA Employee Ordered to Repay                   at FAA’s William J. Hughes Technical Center,
Nearly $13,000 in Misused Federal Funds                 Woods received 19 payments, ranging from
April 30, 2007                                          $4,000 to $50,000 for: (1) structuring FAA
                                                        contracts in a manner designed to avoid
Jacqueline J. Hill-Brown, a former Federal Highway      competition; (2) allowing the contractor to
Administration (FHWA) employee, was ordered             participate in drafting contracting specifications;
on April 30, 2007, by a State court judge in Atlanta,   and (3) improperly disclosing contract information.
Georgia, to pay $12,723 in restitution for misuse       Woods also admitted to laundering a $50,000
of Federal funds. Hill-Brown, who was employed          cash payment he received from the contractor. An
as an information analyst in FHWA’s Atlanta             indictment of the contractor—Maria Lianidis,
Resource Center, was convicted on April 13 of           President of DMS Technologies, Inc.—on related
a theft charge following a jury trial. Hill-Brown       charges was unsealed in September 2007. Her trial
asked a co-worker to approve graduate-level courses     is scheduled for December 2007. Woods has not yet
in health and bio-statistics at Emory University        been sentenced. This case was investigated by
that were not related to her job. The co-worker,        DOT/OIG, with assistance from the Internal
Vernassa B. Smith, approved the training for Hill-      Revenue Service’s Criminal Investigation Division.
Brown in her capacity as an FWHA contracting
officer. The OIG-FHWA investigation found that          Former Director of the Illinois Department of
the request and approval of training were done          Corrections Indicted for Allegedly Accepting
without FHWA management’s knowledge, consent,           $50,000 in Kickbacks from Lobbyists
or authorization. Hill-Brown was also ordered to        Representing State Prison Vendors
serve 90 days in prison, 10 years probation, and        July 20, 2007
3,600 hours of community service. Smith was
acquitted at trial. Both Hill-Brown and Smith were      Donald Snyder, Jr., former Director of the Illinois
fired from FHWA.                                        Department of Corrections (IDOC), was indicted
                                                        on July 20, 2007, in U.S. District Court in Chicago,
Former FAA Supervisor at the                            Illinois, on five counts of mail fraud. Lobbyists
William J. Hughes Technical Center                      John Robinson and Larry Sims also were indicted
Pleads Guilty in Contract Fraud Scheme                  for offering Snyder kickbacks. These indictments
June 13, 2007                                           stem from an investigation that grew out of the
                                                        Operation Safe Road probe of corruption during
Darrell K. Woods, a former Federal Aviation             George Ryan’s terms as Illinois Governor and
Administration (FAA) program manager, pleaded           Illinois Secretary of State. As Director, Snyder
guilty on June 13, 2007, in U.S. District Court         had approval authority over the awarding of
in Trenton, New Jersey, to charges related to           several millions of dollars in contracts to vendors,
his receiving $159,700 in exchange for steering         including healthcare providers, who provided
computer engineering services contracts to an           healthcare services in IDOC institutions. It
agency contractor between July 2001 and                 was alleged that Snyder accepted $50,000 in
December 2004. Woods, who resigned in July 2005         kickbacks derived from the monthly fees that
after receiving notice of his proposed removal, was     Sims and Robinson received from healthcare
charged in an information with one count each of        vendors working with IDOC—kickbacks that
wire fraud and money laundering. While employed         he did not report on his annual Statement of

		                                                                                Department-Wide Issues	 39
Audits and Investigations (continued)

Economic Interest with the State of Illinois. This    in disability payments after falsely certifying on
is a joint investigation with the Federal Bureau of   workers compensation forms that he was unable
Investigation, Internal Revenue Service, and U.S.     to work for medical reasons, when in fact he was
Postal Inspection Service.                            continuing to operate a commercial motor vehicle.
                                                      In addition to the Social Security disability fraud,
Tennessee Truck Driver Sentenced to                   Pickel was indicted on March 13 on charges of
16 Months in Prison for Social Security               making false statements concerning his medical
Disability Fraud                                      qualifications to operate a commercial motor
September 24, 2007                                    vehicle in interstate commerce, falsifying medical
                                                      certificates, intimidating two witnesses, and lying
William D. Pickel, of Blountville, Tennessee,         about the destruction of driver dispatch logs to
was sentenced on September 24, 2007, in               conceal his driving activities. The non-Social
U.S. District Court in Greenville, Tennessee, to      Security disability fraud charges were dropped.
16 months imprisonment for committing Social          DOT/OIG is conducting this ongoing investigation
Security disability fraud. Pickel, a former truck     with the Federal Bureau of Investigation, the
driver for Classic Transportation in Bristol,         Internal Revenue Service’s Criminal Investigation
Virginia, pleaded guilty to the charge on June        Division, and the Social Security Administration
11. He admitted to illegally receiving $128,000       Office of Inspector General.




40	 Semiannual Report to Congress
                                                           Other Accomplishments


T
        his section highlights other accomplishments and contributions by Office of Inspector General
        staff that extend beyond the legal reporting requirements of the Inspector General Act. These
        accomplishments are part of our statutory responsibilities to review existing and proposed
legislation and regulations; respond to congressional and departmental requests for information; and
review policies for ways to promote effectiveness and efficiency and detect and prevent fraud, waste, and
abuse. Accomplishments not directly related to audit and investigative reports during this semiannual
reporting period are also highlighted below, including results of oversight activities carried out in
connection with hurricane relief and recovery efforts in the U.S. Gulf Coast states.

Peer Review of Audit Operations                        report, issued in July 2007, concluded that our
                                                       system of quality control for the audit function
The U.S. Department of Homeland Security               was designed to meet the requirements of the
(DHS) Office of Inspector General conducted a          quality control standards established by the
peer review of our audit operations in accordance      Comptroller General of the United States for a
with the guidelines established by the President’s     federal government audit organization and that
Council on Integrity and Efficiency and the            we complied with those standards for the year
Executive Council on Integrity and Efficiency.         ended September 30, 2006. The DHS IG issued
Triennial external reviews are required by the         an unmodified, or “clean,” opinion on our system
Government Auditing Standards issued by the            of internal audit quality control.
Comptroller General of the United States. The




		                                                                               Other Accomplishments	 41
42	 Semiannual Report to Congress
                                                     Work Planned and in Progress


T
        his section describes significant work projects currently underway or planned by the Office
        of Inspector General that focus on the Department’s Strategic Plan and its core missions of
        transportation safety and mobility. We take into account the need to support DOT’s most
critical programs and to assure that departmental resources are protected from fraud and waste.
In addition, many of our projects arise from requests by Administration officials and members of
Congress.

The OIG has developed the following work plan for the period of October 1, 2007, through
March 31, 2008.



Aviation and Special Programs
❚❚ FAA Oversight of Aircraft                         ❚❚ Air Traffic Control Modernization
   Manufacturers’ Quality Assurance
   Systems for Suppliers                                Examine (1) recent changes in the cost and
                                                        schedule baselines of FAA’s major acquisition
  Evaluate FAA’s oversight of aircraft                  programs and expected benefits to FAA’s key
  manufacturers’ quality assurance systems for          projects, (2) overall trends affecting FAA’s
  domestic and foreign suppliers.                       $205 billion capital account, and (3) how
                                                        existing projects are being impacted by plans
❚❚ Air Carriers’ Outsourcing of Aircraft                for the next generation air traffic system.
   Maintenance
                                                     ❚❚ Air Carrier’s Aviation Safety Action
  Determine the type and quantity of                    Programs (ASAP)
  maintenance performed by outside repair
  stations, and whether FAA is effectively              Evaluate allegations regarding the improper
  monitoring air carriers’ oversight of the work        use of ASAP and determine how reports
  performed by outside repair stations and              submitted for inclusion into ASAP are
  verifying whether safety requirements are met.        evaluated and subsequently investigated by air
                                                        carriers and FAA.
❚❚ Federal Telecommunication
   Infrastructure (FTI) Transition Risks             ❚❚ Review of FAA’s Progress in
   and its Impact on Air Traffic Control                Implementation of Runway Status
   Operations                                           Lights (RWSL)

  Assess FAA’s progress in developing an                Determine the viability of RWSL as a
  effective transition plan and realistic master        technology for reducing runway incursions
  schedule, and determine if FAA is mitigating          and assess FAA’s progress in implementing the
  risks to air traffic control operations by            system.
  coordinating activities and validating site-
  specific requirements before activating
  FTI service and disconnecting existing
  telecommunications service.

		                                                                           Work Planned and in Progress	 43
Work Planned and in Progress (continued)

❚❚ FAA Short-Term Capacity Initiatives                  ❚❚ Review of Reported Near Mid-Air
                                                           Collisions in the New York Metropolitan
  Identify the initiatives, both technological and         Airspace
  procedural, that will provide the most capacity
  benefits in the next 5 years and examine FAA’s         Address the following questions from a request
  implementation process for capacity initiatives        from Senator Clinton: (1) What is the root cause
  and how the interrelationship among the various        of the near misses in May of 2007 in the New
  efforts are managed.                                   York airspace; (2) How is the FAA addressing
                                                         these problems and what measures has the
❚❚ Review of FAA’s Air Traffic Controller                FAA taken to prevent repeat occurrences;
   Facility Training Program                             and, (3) Do any of the New York area airports
                                                         practice a similar type of procedure that FAA
  Assess the adequacy of FAA’s plans to effectively
                                                         ordered a halt to at the Memphis airport where
  train an increasing number of new controllers at
                                                         FAA allowed planes to simultaneously land
  the facility level and determine FAA’s progress in
                                                         and depart from nearby runways that have
  implementing key initiatives for reducing facility
                                                         intersecting flight paths.
  training time and costs.
                                                        ❚❚ Review of FAA’s Automatic Dependent
❚❚ FAA’s Management and Maintenance of
                                                           Surveillance Broadcast (ADS-B) Program
   Air Traffic Control Facilities
                                                         Our objectives are to (1) examine key risks to
  Determine if FAA has (1) developed and
                                                         FAA’s successful implementation of ADS-B and
  implemented a comprehensive strategy to
                                                         (2) assess the strengths and weaknesses of FAA’s
  effectively manage the replacement, repair, and
                                                         proposed contracting approach.
  modernization of its air traffic control facilities
  and (2) allocated sufficient funds to carry out       ❚❚ FAA Oversight of Commuter and
  those activities.                                        On-Demand Operators
❚❚ Implementation of the Pipeline Security               Evaluate the differences between FAA regulations
   Annex                                                 and oversight for commuter and on-demand
                                                         operators versus larger commercial air carriers;
  Provide the implementation status of the
                                                         and, identify specific issues that may hinder FAA
  program elements outlined in the annex;
                                                         in its oversight, such as a lack of adequate data on
  determine the role, responsibility, and authority
                                                         commuter and on-demand operations.
  of PHMSA regarding pipeline security; assess
  the adequacy and effectiveness of the process by      ❚❚ Runway Safety Areas
  which PHMSA communicates and coordinates
  with TSA on matters relating to pipeline               Evaluate FAA’s processes for identifying,
  security; and address the adequacy of security         prioritizing, and funding needed runway
  standards for gas and oil pipelines.                   safety area enhancements and assess FAA’s and
                                                         airports’ progress in fulfilling the congressional
                                                         mandate.




44	 Semiannual Report to Congress
❚❚ Progress and Plans for Transitioning to            ❚❚ FAA Aviation Safety Inspector Staffing
   Satellite Based Navigation
                                                        Determine whether (1) FAA has established an
  Review FAA’s progress and plans for                   effective process for monitoring staffing levels
  transitioning satellite based navigation services     in light of potential inspector attrition, and
  in the NAS, and determine whether FAA’s plans         (2) FAA’s hiring and training practices ensure
  to establish a back-up system are cost effective.     the inspector workforce is well-qualified and
                                                        has the right skill set.
❚❚ Airport Improvement Program Grant
   Oversight

  Review FAA’s oversight of airport improvement
  program grants to ensure airport sponsors
  are reimbursed only for expenditures that are
  authorized by airport improvement program
  grant agreements.




		                                                                         Work Planned and in Progress	 45
Work Planned and in Progress (continued)


Surface and Maritime Programs
❚❚ NHTSA’s Oversight of State Highway                ❚❚ Evaluation of Cross-Border Trucking
   Safety Programs                                      Issues Part II

  Evaluate NHTSA’s oversight of state highway         After the initiation and funding of the
  safety programs and identify best practices.        demonstration project that would allow a
                                                      limited number of Mexican trucks to operate
❚❚ Amount and Use of Revenue Derived                  beyond the commercial zones at the border,
   from the Commercial Drivers License                monitor and review the project and examine
   Information System Modernization                   participant selection, FMCSA’s mechanisms for
                                                      monitoring any adverse effects on motor carrier
  Analyze the amounts and use of the revenues         safety, and enforcement activities.
  derived from fees charged for use of the
  commercial driver’s information system.            ❚❚ Review of Canadian/Mexican Commercial
                                                        Motor Vehicle Compliance
❚❚ Baseline Report on Major Project
   Monitoring of the Lower Manhattan                  Provide comments and observations on the
   Recovery Projects                                  scope and methodology of FMCSA’s report on
                                                      the degree to which Canadian and Mexican
  Assess (1) the status of the Lower Manhattan        commercial motor vehicles, including motor
  Transit Recovery Projects including cost,           carriers of passengers, currently operating or
  schedule, funding, and Lower Manhattan              expected to operate in the United States, comply
  Recovery Office management and (2) any              with Federal Motor Vehicle Safety Standards.
  risks that may adversely impact a project’s
  completion.                                        ❚❚ SAFETEA-LU Project Management Plan
                                                        Provisions for Major Projects Costing
❚❚ FHWA’s Corrective Actions Regarding                  $500 Million or More
   Load Ratings and Weight Postings
                                                      Determine whether State Transportation
  Assess the corrective actions taken by FHWA to      Agencies (STA) are preparing major Project
  address the recommendations made by the OIG         Management Plans which fully describe the
  in our March 6, 2006 audit report entitled Audit    STA organization, policies, and procedures used
  of Oversight of Load Ratings and Postings on        to manage individual major projects, contract
  Structurally Deficient Bridges on the National      authority, right of way acquisition, construction
  Highway System.                                     management, and other practices consistent
                                                      with FHWA guidance specified in the FHWA
❚❚ Audit of FHWA Funding to Correct                   Memorandum dated January 27, 2006.
   Structurally Deficient Bridges

  Assess the extent to which states effectively
  and efficiently use FHWA funds to correct
  structurally deficient bridges.



46	 Semiannual Report to Congress
❚❚ Activities of the Office of Research,          ❚❚ Assessment of the Central Artery/Tunnel
   Demonstration and Innovation                      Stem to Stern Safety Review – Phase II

  Examine the effectiveness of FTA’s oversight     Continue the effort to ensure that the Central
  of research grants and cooperative agreements    Artery/Tunnel Stem to Stern Safety Review is
  and determine whether FTA has implemented        comprehensive and conducted in a complete
  applicable government-wide standards.            and rigorous manner. We will also follow up on
                                                   the corrective actions taken in response to our
❚❚ National Bridge Inspection Program –            report “Initial Assessment of the Central Artery/
   Phase III                                       Tunnel Project Stem to Stern Safety Review”.
  Conduct a comprehensive review of FHWA’s
  oversight activities to ensure the safety of
  National Highway System bridges across the
  country.




		                                                                    Work Planned and in Progress	 47
Work Planned and in Progress (continued)


Competition and Economic Analysis
❚❚ Benefits of True High-Speed Rail                   ❚❚ Small Community Air Service
   on the Northeast Corridor                             Development Program

  Quantify the financial and public benefits of         Determine the effectiveness of the Small
  true high-speed rail in the Northeast Corridor.       Community Air Service Development Program
                                                        in helping small-hub and non-hub communities
❚❚ Amtrak Quarterly Reports on                          in achieving sustainable and reliable air service.
   Operational Savings
                                                      ❚❚ Assessment of Amtrak’s Financial
  As mandated by Congress, we will issue                 Performance
  quarterly reports to the House and Senate
  Committees on Appropriations on our estimates         Evaluate and analyze Amtrak’s current financial
  of the savings accrued as a result of operational     status and the operational factors contributing
  reforms instituted by Amtrak.                         to that status.

❚❚ Root Causes of Amtrak Delays                       ❚❚ Amtrak’s Planned Capital Expenditures

  Investigate the root causes of Amtrak delays          At the request of Congress, evaluate the
  and compliance with 49 USC Section 24308(c)           appropriateness of Amtrak’s planned capital
  which gives Amtrak trains preference in the           expenditures.
  use of freight owned track over freight rail
  transportation.                                     ❚❚ Public-Private Partnerships – Innovative
                                                         Financing
❚❚ Effects of Amtrak’s On-Time Performance
                                                        Investigate the conditions under which public-
  Produce a quantitative assessment of the              private partnerships prove to be beneficial to the
  financial impact on Amtrak of its poor on‑time        development of transportation infrastructure.
  performance.




48	 Semiannual Report to Congress
Financial and Information Technology
❚❚ FY 2007 Federal Information Security              for unapproved use; (2) traffic violations are
   Management Act Review                             promptly and accurately processed for NDR
                                                     reporting; (3) an adequate contingency plan
 Determine the effectiveness of DOT’s                exists to ensure business continuity; and
 information security program. Specifically, we      (4) risks associated with NDR system operations
 will review the DOT’s progress in (1) correcting    are properly assessed, tested, and mitigated to
 security weaknesses identified previously in        meet minimum Government security standards.
 the air traffic control system; (2) establishing
 a secure IT operating environment at DOT’s         ❚❚ FAA’s Corrections of Security Weaknesses
 new Headquarters’ building; (3) meeting the           in Air Traffic Control Systems
 minimum Government security standards
 to protect sensitive information systems and        Assess the progress and report on the status
 data; and (4) implementing Earned Value             of FAA’s effort to correct security weaknesses
 Management to better monitor major IT               identified previously in air traffic control
 investment projects.                                systems—(1) developing a Business Continuity
                                                     Plan to ensure continued en route center
❚❚ Computer Security and Controls over the           operations and (2) conducting security
   National Driver Registry (NDR)                    certification reviews to identify software
                                                     differences between operational air traffic
 Determine whether (1) personal identification       control systems and the “baseline” systems
 information stored in the NDR can be accessed       tested in the computer laboratory.




		                                                                     Work Planned and in Progress	 49
Work Planned and in Progress (continued)

❚❚ Security Protection of Air Traffic Control         ❚❚ Quality Control Review on Privacy
   System Network Connections                            Program Assessment

  Determine whether (1) FAA has taken actions          Evaluate the agency’s use of personally
  to secure the connections between the air            identifiable information, evaluate the agency’s
  traffic control network and the administrative       program for protecting privacy information, and
  networks previously identified, (2) FAA’s            make recommendations for improvement.
  system certification and accreditation reviews
  are effective in identifying unauthorized           ❚❚ Security Protection of Airmen Personal
  network connections, (3) FAA timely reported           Identifiable Information
  unauthorized network connections to proper
  authority and tracked corrective actions in          Determine whether (1) use of the personally
  the POA&M database for official reporting,           identifiable information was properly disclosed
  and (4) FAA Network Control Centers have             to the public as required by the law; (2) controls
  implemented effective procedures to prevent/         were in place to prevent unintended use of,
  detect unauthorized network connections.             or unauthorized access to, the information
                                                       collected; and (3) systems were properly secured
❚❚ Integrity of IT Investment Business Case            to ensure the integrity (accuracy, completeness,
   (E-300) Process                                     timeliness) of the information maintained
                                                       within the system.
  Determine (1) what management reviews were
  done to ensure the integrity of OAs’ E-300          ❚❚ FY 2007 DOT Consolidated Financial
  submission, (2) what mechanisms were used to           Statements
  identify problem projects for IRB review,
  (3) whether changes to cost and schedule             Render an opinion on the financial statements
  baselines were properly reviewed and                 and issue reports on internal controls and
  documented, and (4) whether OAs accurately           compliance with financial related laws and
  reported security costs on E-300.                    regulations.

❚❚ Commercial Driver License Information              ❚❚ Quality Control Review of FY 2007
   System (CDLIS)                                        Highway Trust Fund Financial Statements

  Determine whether (1) convictions and other          Perform a quality control review of the audit
  personal identifiable information recorded in        by an independent public accounting firm
  CDLIS are accurate, timely, and complete; and        and determine if the audit was performed in
  (2) a mechanism is in place to track, prioritize,    accordance with applicable auditing standards.
  and mitigate system design or operational
                                                      ❚❚ Quality Control Review of FY 2007 FAA
  deficiencies.
                                                         Financial Statements

                                                       Perform a quality control review of the audit
                                                       by an independent public accounting firm
                                                       and determine if the audit was performed in
                                                       accordance with applicable auditing standards.



50	 Semiannual Report to Congress
❚❚ Quality Control Review of FY 2007 FAA’s           assurance that the FY 2007 Drug Control Report
   Franchise Fund Financial Statements               is not materially misstated

 Perform a quality control review of the audit      ❚❚ FY 2008 DOT Consolidated Financial
 by an independent public accounting firm              Statements
 and determine if the audit was performed in
 accordance with applicable auditing standards.      Determine if the FY 2008 DOT Consolidated
                                                     Financial Statements are fairly presented, in
❚❚ Quality Control Review of FY 2007 NTSB            accordance with Governmental GAAP.
   Financial Statements
                                                    ❚❚ Quality Control Review on FY 2008 FAA
 Perform a quality control review of the audit         Financial Statements
 by an independent public accounting firm
 and determine if the audit was performed in         Perform a quality control review of the audit
 accordance with applicable auditing standards.      by an independent public accounting firm
                                                     and determine if the audit was performed in
❚❚ Quality Control Review of FY 2007 SLSDC           accordance with applicable auditing standards.
   Financial Statements
                                                    ❚❚ Quality Control Review of FY 2008 FAA’s
 Perform a quality control review of the audit         Franchise Fund Financial Statements
 by an independent public accounting firm
 and determine if the audit was performed in         Perform a quality control review of the audit
 accordance with applicable auditing standards.      by an independent public accounting firm
                                                     and determine if the audit was performed in
❚❚ FY 2007 Special Purpose (Closing                  accordance with applicable auditing standards.
   Package) Financial Statement
                                                    ❚❚ Quality Control Review on FY 2008 NTSB
 Determine whether the special-purpose                 Financial Statements
 financial statements and accompanying notes
 are fairly present, in all material respects, in    Perform a quality control review of the audit
 conformity with the U.S. generally accepted         by an independent public accounting firm
 accounting principles.                              and determine if the audit was performed in
                                                     accordance with applicable auditing standards.
❚❚ FY 2007 DOT Intragovernmental Activity
   and Balances                                     ❚❚ Quality Control Review on FY 2008 SLSDC
                                                       Financial Statements
 Perform agreed upon procedures on the DOT
 FY 2007 Intragovernmental Activity and              Perform a quality control review of the audit
 Balances for consolidation into the FY 2007         by an independent public accounting firm
 Government-wide financial statements.               and determine if the audit was performed in
                                                     accordance with applicable auditing standards.
❚❚ FY 2007 DOT Drug Control Report

 Perform an attestation review on the FY 2007
 Drug Control Report submitted by DOT
 (NHTSA) to the ONDCP; to provide negative

		                                                                      Work Planned and in Progress	 51
Work Planned and in Progress (continued)

❚❚ Contractor Overhead and Compensation                (4) OST entered the individuals and
   Under Grants                                        organizations recommended for suspension or
                                                       debarment in Excluded Parties List System timely
  Review the effectiveness and implementation          so that exclusions have Government-wide effect.
  of audit provisions in Section 307 of the
  National Highway System Designation Act             ❚❚ Use of Cost-Plus-Award-Fee Contracts
  addressing audits of contracts awarded by states       Within DOT
  to engineering and design firms. Procedures
  include testing the allowability of compensation     Determine whether cost-plus-award-fee
  and other high overhead cost elements billed by      contracts were effectively designed and
  these firms.                                         administered in the best interest of the
                                                       Government.
❚❚ Status Assessment of FAA’s Cost
   Accounting System                                  ❚❚ Review of the Use of Price and Cost
                                                         Analysis for Newly Awarded and Modified
  As required by FAA’s Reauthorization Act               Contracts
  (AIR-21), perform a review of the status of FAA’s
  Cost Accounting System and assess eight specific     Determine whether FAA performed adequate
  areas covering FAA’s methods for calculating         price and cost analysis when negotiating
  and assigning costs to users and whether those       amounts for non-competitive procurements.
  methods are reasonable.
                                                      ❚❚ Controls Over and Use of Time and
❚❚ Suspension and Debarment                              Material (T&M) and Labor Hours (LH)
                                                         Contracts
  Determine whether (1) Operating
  Administrations (OAs) made decisions to              Determine if (1) T&M and LH contracts were
  suspend, debar, or take other action for the         awarded only when other contract vehicles were
  referred cases in a timely manner, (2) OAs           properly deemed unsuitable, (2) labor charges
  appropriately implemented the agreements             were appropriate for staff qualifications and
  negotiated as alternatives to suspension or          hours worked, and (3) contract services were
  debarment, (3) OAs provided OST with the data        subjected to proper oversight.
  required by the DOT Order timely, and




52	 Semiannual Report to Congress
     Statistical Performance Data

     Summary of Performance
     Office of Inspector General
     April 1 – September 30, 2007
     (Dollars in Thousands)



     Reports Issued                                 38

     Recommendations Issued                         95

     Congressional Testimonies                      14

     Total Financial Recommendations           $38,275

        — that funds be better used            $13,705

        — that questioned costs                $24,570

     Indictments                                    54

     Convictions                                    64

     Fines, Restitutions, and Recoveries   $122,311,180




		                                                   Charts & Tables	 53
Audits
Completed OIG Reports
April 1 – September 30, 2007
(Dollars in Thousands) *

            Type of Review             Number of Reports        Number of        Questioned Costs **     Funds to be Put
                                                             Recommendations                              to Better Use


Internal Audits
   Performance/Attestation Audits             17                   72                            $0           $735,684
   Financial Audits                           0                    0                             $0           $118,553

Other OIG Internal Reports                    0                     0                            $0                  $0

Total Internal Audit Reports                  17                   72                            $0                  $0

Grant Audits
   Audits of Grantee Under
   Single Audit Act                           21                   23                      $24,570                   $0


TOTALS                                        38                   95                      $24,570            $13,705


* The dollars shown are the amounts reported to management. The actual amounts may change during final
  resolution.

** There were no recommendations for unsupported costs during the reporting period.


Department of Transportation programs and operations are primarily carried out by the Department’s
own personnel and recipients of Federal grants. Audits by DOT’s Office of Inspector General, as a result,
generally fall into three categories: internal audits of Departmental programs and operations; audits
of grant recipients; and other OIG reports. In addition, these statistics include audit work on National
Transportation Safety Board programs. The table above shows OIG’s results for the 6 months covered by
this report.



54	 Semiannual Report to Congress
OIG Reports with Recommendations that Questioned Costs
April 1 – September 30, 2007
(Dollars in Thousands)

                                                     Number of Reports           Number of      Questioned Costs *
                                                                              Recommendations



A.    For which no management
      decision had been made by the
      start of the reporting period                         21                       28              $62,953

B.    Which were issued during
      the reporting period                                  11                          15           $24,570

      Totals (A+B)                                          32                       43             $87,523

C.    For which a management
      decision was made during
      the reporting period                                  20                       28               $63,013


      (i) dollar value of disallowed costs**                13                          16            $23,948

      (ii) dollar value of costs not disallowed **          10                          14            $39,129

D.    For which no management
      decision had been made by the
      end of the reporting period                           12                          15            $24,510


* There were no recommendations for unsupported costs during the reporting period.

** Includes reports and recommendations where costs were both allowed and disallowed.




		                                                                                              Charts & Tables	 55
OIG Reports with Recommendations that Funds Be Put to Better Use
April 1 – September 30, 2007
(Dollars in Thousands)

                                                  Number of              Number of      Funds to be Put
                                                   Reports            Recommendations    to Better Use


 A.   For which no management
      decision had been made by the
      start of the reporting period                  5                       5           $1,933,384

 B.   Which were issued during
      the reporting period                           2                       4               $13,705

      Totals (A+B)                                   7                       9          $1,947,089

 C.   For which a management
      decision was made during
      the reporting period                           3                       5              $988,705

      (i) dollar value of
          recommendations that were
          agreed to by management *                  2*                      4*               $3,705

      (ii) dollar value of
           recommendations that were
           not agreed to by management *             1*                      2*            $985,000

 D.   For which no management
      decision had been made by the
      end of the reporting period                    4                       4             $958,384


* Includes reports and recommendations where costs were both allowed and disallowed.




56	 Semiannual Report to Congress
OIG Reports Recommending Changes for Safety, Economy, or Efficiency
April 1 – September 30, 2007

                                                                             Number of Reports             Number of Recommendations



A.      For which no management decision
        had been made by the start of the reporting period                           36                                  106

B.      Which were issued during the reporting period                                19                                  76

        Totals: (A+B)                                                                55                                 182

C.      For which a management decision
        was made during the reporting period *                                       24                                  88

D.      For which no management decision
        had been made by the end of the reporting period *                           34                                  94


* Includes reports where management both made and did not make a decision on recommendations.


               AUDIT TYPE                   # of Total Reports for   # of Reports with Safety,       # of Total         # of Safety, Economy,
                                            this reporting period     Economy, or Efficiency     Recommendations             or Efficiency
                                                                        Recommendations                                  Recommendations



Internal                                             17                         11                             72                          68

Financial                                             0                         0                                  0                            0

Other                                                 0                         0                                  0                            0

Grant Audits                                         21                         5                              23                               8

TOTALS                                               38                         16                            95                           76



		                                                                                                                     Charts & Tables	 57
Management Decisions Regarding OIG Recommendations
April 1 – September 30, 2007
(Dollars in Thousands)

	
                     Description                 Number of      Number of       Questioned     Funds to be Put
                                                  Reports    Recommendations     Costs *        to Better Use


    Unresolved as of 04/01/2007                     55            139             $62,953        $1,933,384
    Audits with Findings During Current Period      28             95             $24,570           $13,705
    Total to Be Resolved                            83            234             $87,523        $1,947,089

    Management Decisions:

    Audits Prior Period ‡                           30             69             $60,992         $975,000
    Audits Current Period ‡                         13             52              $2,022          $13,705

    Total Resolved                                  43            121             $63,014            $988,705

    Aging of Unresolved Audits: **

    Less than 6 months old                          18             43             $22,548               $0
    6 months – 1 year                                5             14                $351         $735,684
    1 year – 18 months                               2              8              $1,400           $1,700
    18 months – 2 years                              5             14                $211               $0
    Over 2 years old                                13             34                  $0         $221,000

    Unresolved as of 09/30/07                       43            113              $24,510        $958,384


* 	There were no recommendations for unsupported costs during this reporting period.

‡ 	Includes reports and recommendations where costs were both allowed and disallowed.

** Considered unresolved if management decisions have not been made on all report recommendations.




58	 Semiannual Report to Congress
OIG Published Reports
April 1 – September 30, 2007



FEDERAL AVIATION ADMINISTRATION
Internal Audits: Performance/Attestation – 4 reports

Report               Date                          Title                                  Focus of Report/
                                                                                         Recommendations



AV-2007-048        05/18/07    Controls Over the Federal Aviation           Improved controls over outsourcing of
                               Administration’s Conversion of Flight        flight service stations during the next
                               Service Stations to Contract Operations      phase of transition needed

AV-2007-050        05/24/07    Progress Has Been Made in Reducing           Proactive actions at the national level
                               Runway Incursions, but Recent Incidents      need to be taken to help reduce runway
                               Underscore the Need for Further Proactive    incursions system-wide
                               Efforts

AV-2007-073        09/13/07    FAA’s Oversight of Inactive Airport          Put $3,704,608 to better use
                               Improvement Program Grant Obligations

AV-2007-080        09/28/07    Actions Taken to Address Allegations of   Better procedures for responding to and
                               Unsafe Maintenance Practices at Northwest resolving safety complaints identified by
                               Airlines                                  inspectors are needed



Internal Audits: Financial – 1 report


QC-2007-072        09/13/07    Quality Control Review of the Report on       Safeguard controls need to be established
                               Controls over the Enterprise Service Center’s to prevent or detect unauthorized access
                               Delphi Financial Management System (also to Delphi operations
                               listed under Office of the Secretary)




		                                                                                                Charts & Tables	 59
Grant Audits: Audits of Grantee Under Single Audit Act – 4 reports

QC-2007-045              05/15/07    Commonwealth Ports Authority, HI             $706,960 questioned

QC-2007-052              06/27/07    Augusta, GA                                  $28,316 questioned

QC-2007-053              06/27/07    City of Columbus, IN                         $857,287 questioned

QC-2007-079              09/27/07    Port of Seattle, Washington                  Improve grantee oversight




FEDERAL HIGHWAY ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports

Report                    Date                           Title                                Focus of Report/
                                                                                             Recommendations



MH-2007-063             08/16/07    Initial Assessment of the Central Artery/    Thorough follow-up and aggressive action
                                    Tunnel Project Stem to Stern Safety Review   needed to complete assessment of safety
                                                                                 risks going forward in project

CR-2007-079             09/26/07    Growth in Highway Construction and           Continuing elevated highway construction
                                    Maintenance Costs                            costs will create a challenge on how
                                                                                 best to maintain and improve the aging
                                                                                 highway infrastructure


Grant Audits: Audits of Grantee Under Single Audit Act – 3 reports

QC-2007-056             07/18/07    State of Hawaii Department of                $1,830,898 questioned
                                    Transportation-Highways Division

QC-2007-058             07/18/07    State of Minnesota                           $11,196,000 questioned

QC-2007-059             07/18/07    State of Florida                             $462,123 questioned




60	 Semiannual Report to Congress
FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports

Report                   Date                       Title                                Focus of Report/
                                                                                        Recommendations



MH-2007-062   08/06/07          Follow-up Audit on the Implementation of State corrective action plans and a
                                the North American Free Trade Agreement’s quarterly review process need to be
                                Cross-Border Trucking Provisions          developed to identify inconsistencies

MH-2007-065   09/06/07          Issues Pertaining to the Proposed NAFTA     Plans needed to check every
                                Cross-Border Trucking Demonstration         demonstration project truck when
                                Project                                     crossing the border


FEDERAL RAILROAD ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports

Report                   Date                       Title                                Focus of Report/
                                                                                        Recommendations



MH-2007-044          05/03/07   The Federal Railroad Administration Can     Ensure compliance with reporting
                                Improve Highway-Rail Grade Crossing         requirements, including reviewing grade
                                Safety by Ensuring Compliance with          crossing collision records and assessing
                                Accident Reporting Requirements and         civil penalties for failures
                                Addressing Sight Obstructions

CR-2007-074          09/14/07   Amtrak’s Board of Directors Provides        Effectiveness can be improved by
                                Leadership to the Corporation But Can       implementing corporate governance best
                                Improve How It Carries Out Its Oversight    practices
                                Responsibilities




		                                                                                               Charts & Tables	 61
FEDERAL TRANSIT ADMINISTRATION
Internal Audits: Performance/Attestation – 2 reports

Report                    Date                            Title                                 Focus of Report/
                                                                                               Recommendations



FI-2007-047             05/15/07    FTA Procedures to Prevent Antideficiency      Sufficient controls to prevent and detect
                                    Act Violations                                overobligations in the mass transit
                                                                                  account for the grants program have been
                                                                                  implemented

MH-2007-060             07/27/07    Baseline Report on Major Project              Oversight is needed over potential risk
                                    Monitoring of the Dulles Corridor Metrorail   areas, such as sufficiency of local funding
                                    Project                                       sources



Grant Audits: Audits of Grantee Under Single Audit Act – 7 reports

QC-2007-049             05/23/07    Miami-Dade Transit, FL                        Improve grantee oversight

QC-2007-051             06/27/07    City of Turlock, CA                           $128,417 questioned

QC-2007-054             07/18/07    Massachusetts Bay Transportation Authority $8,624,998 questioned

QC-2007-055             07/18/07    South Carolina Department of                  $496,479 questioned
                                    Transportation

QC-2007-057             07/18/07    Washington Metropolitan Area Transit          Improve grantee oversight
                                    Authority

QC-2007-075             09/18/07    Dallas Area Rapid Transit, TX                 Improve grantee oversight

QC-2007-078             09/25/07    Tri-County Metropolitan Transportation        $47,812 questioned
                                    District of Oregon




62	 Semiannual Report to Congress
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION
Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

Report             Date                             Title                                Focus of Report/
                                                                                        Recommendations



QC-2007-046      05/15/07     State of New Jersey                          $190,735 questioned



OFFICE OF THE SECRETARY OF TRANSPORTATION
Internal Audits: Performance/Attestation – 3 reports

Report             Date                             Title                                Focus of Report/
                                                                                        Recommendations



FI-2007-064      08/29/07     More Incurred-Cost Audits of DOT         Put $10,000,000 to better use
                              Procurement Contracts Should be Obtained


AV-2007-066      09/07/07     Review of Congressional Earmarks Within      Earmarks impact programs by reducing
                              Department of Transportation Programs        funding for core transportation programs
                                                                           and being funded over higher priority,
                                                                           non-earmarked projects


AV-2007-077      09/25/07     Actions Needed to Minimize Long,             More active role needs to be taken to
                              On-Board Flight Delays                       oversee customer service issues and
                                                                           ensure airlines comply with their policies


Internal Audits: Financial – 1 report

QC-2007-072      09/13/07     Quality Control Review of the Report on       Safeguard controls need to be established
                              Controls Over the Enterprise Service Center’s to prevent or detect unauthorized access
                              Delphi Financial Management System (also to Delphi operations
                              listed under Federal Aviation Administration)




		                                                                                               Charts & Tables	 63
RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION
Internal Audits: Financial – 1 report

Report                    Date                         Title                                Focus of Report/
                                                                                           Recommendations



FI-2007-061             08/01/07    Volpe Center’s Information Technology      Management must develop and test
                                    Security and Resource Management           system contingency plans to ensure
                                    Activities                                 continued operation


NATIONAL SINGLE AUDIT SAMPLING PROJECT
Grant Audits: Audits of Grantee Under Single Audit Act – 6 reports

Report                    Date                         Title                                Focus of Report/
                                                                                           Recommendations



QC-2007-067             09/11/07    New Mexico State Highway and               Improve grantee oversight
                                    Transportation Department


QC-2007-068             09/11/07    County of Monroe, New York                 Improve grantee oversight


QC-2007-069             09/11/07    Puerto Rico Highway and Transportation     Improve grantee oversight


QC-2007-070             09/11/07    City of Baton Rouge-Parish of East Baton   Improve grantee oversight
                                    Rouge, Louisiana

QC-2007-071             09/11/07    New Jersey Transit Corporation             Improve grantee oversight


QC-2007-076             09/21/07    County of Milwaukee, Wisconsin             Improve grantee oversight




64	 Semiannual Report to Congress
Other Audit Work Products
April 1 – September 30, 2007


In addition to providing a listing of each audit report issued to the Department and statistical tables on
the number of reports and recommendations issued, OIG completes other types of work products during
the semiannual period that contribute to the effective and efficient operations of the Department.

                             Type of Product                      Number of Products


                             Briefings and Presentations                  8

                             Formal Correspondence                        3

                             Speaking Engagements/Speeches                1



Examples of Other Work Products completed during this reporting period include:

       •	   A briefing by staff of the Office of Aviation and Special Programs for staff of the Senate
            Committee on Appropriations on the status of the Advanced Technology and Oceanic
            Procedures (ATOP) program. The presentation discussed progress and problems with the
            system, contract modifications, controller complaints, and next steps for the program.

       •	   A briefing by the Inspector General and staff of the Office of Surface and Maritime Programs
            for the Governor of Massachusetts on the OIG’s Stem to Stern Review. This review is an
            independent and comprehensive review of the soundness and near and long-term safety of
            the Central Artery/Tunnel Project.

       •	   A letter responding to a request from Representative Mica to determine the average
            compensation for controllers employed by the FAA.

       •	   A speech at the AASHTO Internal/External Audit Conference by the Acting Assistant
            Inspector General for Surface and Maritime Programs presenting an overview of recent
            highway-related audits.




		                                                                                        Charts & Tables	 65
Office of Inspector General Congressional Testimonies
April 1 – September 30, 2007


  Control No.       Date                          Subject                                     Before


CC-2007-042     04/11/07    Refocusing Efforts To Improve Airline        Committee on Commerce, Science, and
                            Customer Service                             Transportation
                                                                         United States Senate
CC-2007-046     04/20/07    Actions Needed to Improve Airline Customer   Committee on Transportation and Infrastructure,
                            Service                                      Subcommittee on Aviation
                                                                         U.S. House of Representatives
CC-2007-048     04/24/07    Opportunities to Improve Internal Controls   Committee on Homeland Security and
                            Over the Federal Transit Benefit Program     Governmental Affairs, Permanent Subcommittee
                                                                         on Investigations
                                                                         United States Senate
CC-2007-052     05/08/07    Opportunities to Further Improve Railroad    Committee on Transportation and Infrastructure,
                            Safety                                       Subcommittee on Railroads, Pipelines, and
                                                                         Hazardous Materials
                                                                         U.S. House of Representatives
CC-2007-047     05/09/07    Actions Needed to Reduce Risk With the       Committee on Transportation and Infrastructure,
                            Next Generation Air Transportation System    Subcommittee on Aviation
                                                                         U.S. House of Representatives
CC-2007-054     05/10/07    FAA’s FY 2008 Budget Request: Key Issues     Committee on Appropriations, Subcommittee on
                            Facing the Agency                            Transportation, Housing and Urban Development,
                                                                         and Related Agencies
                                                                         United States Senate
CC-2007-060     05/22/07    Actions Needed to Further Improve Railroad   Committee on Commerce, Science, and
                            Safety                                       Transportation, Subcommittee on Surface
                                                                         Transportation and Merchant Marine
                                                                         Infrastructure, Safety, and Security
                                                                         United States Senate




66	 Semiannual Report to Congress
  Control No.       Date                          Subject                                      Before


CC-2007-076     06/20/07   Aviation Safety: FAA Oversight of Foreign      Committee on Commerce, Science, and
                           Repair Stations                                Transportation, Subcommittee on Aviation
                                                                          Operations, Safety, and Security
                                                                          United States Senate
CC-2007-078     07/11/07   Motor Carrier Safety: Oversight of High-Risk   Committee on Transportation and Infrastructure,
                           Trucking Companies                             Subcommittee on Highways and Transit
                                                                          U.S. House of Representatives
CC-2007-063     07/17/07   Falsification of FAA Airman Medical            Committee on Transportation and Infrastructure,
                           Certificate Applications by Disability         Subcommittee on Aviation
                           Recipients                                     U.S. House of Representatives
CC-2007-095     09/05/07   FHWA’s Oversight of Structurally Deficient     Committee on Transportation and Infrastructure
                           Bridges                                        U.S. House of Representatives
CC-2007-101     09/20/07   FHWA Can Do More in the Short Term to          Committee on Environment and Public Works
                           Improve Oversight of Structurally Deficient    United States Senate
                           Bridges
CC-2007-099     09/26/07   Actions Needed to Improve Airline Customer     Committee on Transportation and Infrastructure,
                           Service and Minimize Long, On-Board            Subcommittee on Aviation
                           Delays                                         U.S. House of Representatives
CC-2007-105     09/27/07   Actions Needed to Improve Airline Customer     Committee on Commerce, Science, and
                           Service and Minimize Long, On-Board            Transportation, Subcommittee on Aviation
                           Delays                                         Operations, Safety, and Security
                                                                          United States Senate




		                                                                                                      Charts & Tables	 67
Status of Unresolved Recommendations Over 6 Months Old

             Cited in Semiannual Report for April 1, 2000 – September 30, 2000

Contract Towers: Observations on FAA’s Study of AV-2000-079   04/12/00   Awaiting additional information
Expanding the Program                                                    from FAA

              Cited in Semiannual Report for October 1, 2001 – March 31, 2002

Acquisition of the Weather and Radar Processor AV-2002-084    02/28/02   FAA is working to resolve open
                                                                         issues

             Cited in Semiannual Report for April 1, 2003 – September 30, 2003

Status Report on FAA’s Operation Evolution Plan AV-2003-048   07/23/03   FAA is working to resolve open issues

FAA Needs to Reevaluate STARS Costs and        AV-2003-058    09/09/03   FAA is working to resolve open issues
Consider Other Alternatives

              Cited in Semiannual Report for October 1, 2004 – March 31, 2005

2003 Status Assessment of Cost Accounting      FI-2005-010    11/17/04   FAA is working to resolve open
System and Practices                                                     issues

Terminal Modernization: FAA Needs to Address   AV-2005-016    11/23/04   FAA is working to resolve open
its Small, Medium, and Large Sites Based on                              issues
Cost, Time, and Capability

Inactive Obligations                           FI-2005-044    01/31/05   FAA is working to resolve open
                                                                         issues

Greater Cleveland Regional Transit Authority   QC-2005-053    03/15/05   FAA is working with Grantee to
                                                                         resolve open issues




68	 Semiannual Report to Congress
              Cited in Semiannual Report for April 1, 2005 – September 30, 2005

Status of FAA’s Major Acquisitions: Cost Growth AV-2005-061             05/26/05        FAA is working to resolve open
and Schedule Delays Continue to Stall Air                                               issues
Traffic Modernization

Safety Oversight of an Air Carrier                  AV-2005-062         06/03/05        FAA is working to resolve open
Industry in Transition                                                                  issues

FAA’s En Route Modernization Program is on          AV-2005-066         06/29/05        FAA is working to resolve open
Schedule But Steps Can Be Taken to Reduce                                               issues
Future Risks

Chicago’s O’Hare Modernization Plan                 AV-2005-067         07/21/05        FAA is working to resolve open
                                                                                        issues

              Cited in Semiannual Report for October 1, 2005 – March 31, 2006

Followup Audit Review of Air Traffic                      AV-2006-021        12/07/05    FAA is working to resolve open
Controller Training                                                                      issues

Chicago Transit Authority                                 QC-2006-026        12/07/05    FTA is working with Grantee to
                                                                                         resolve open issues

Air Carriers Use of Non-Certificated Repair Facilities    AV-2006-031        12/15/05    FAA is working to resolve open
                                                                                         issues

Greenville Transit Authority                              QC-2006-034        02/02/06    FTA is working with Grantee to
                                                                                         resolve open issues

Safety of Highway Bridges                                 MH-2006-043        03/21/06    FHWA is working to resolve open
                                                                                         issues




		                                                                                                      Charts & Tables	 69
             Cited in Semiannual Report for April 1, 2006 – September 30, 2006

Use of Airport Revenues by the Greater Orlando       AV-2006-056   08/03/06   FAA is working to resolve open
Aviation Authority                                                            issues

Mississippi DOT Katrina Emergency Repair Contracts   MH-2006-065   09/06/06   FHWA is working to resolve open
                                                                              issues

              Cited in Semiannual Report for October 1, 2006 – March 31, 2007

FY 2006 Audit of NTSB Financial Statements           QC-2007-007   11/13/06   NTSB is working to resolve open
                                                                              issues

Northeast Illinois Regional Commuter Railroad        QC-2007-027   02/01/07   FTA is working with Grantee to
Corporation                                                                   resolve open issues

Opportunities for FHWA to Free Up Unneeded           MH-2007-037   03/06/07   FHWA is working to resolve open
Funds in States Affected By Hurricanes                                        issues

FHWA’s Oversight for Implementing                    MH-2007-040   03/28/07   FHWA is working with Grantee to
Value Engineering                                                             resolve open issues

Lakeland Area Mass Transit District                  QC-2007-041   03/29/07   FTA is working with Grantee to
                                                                              resolve open issues




70	 Semiannual Report to Congress
Application of Audit Project Hours by Operating Administration
April 1 – September 30, 2007




NOTES:                                                                RITA
                                                                       1%    FRA
                                                              NHTSA          4%
•­	    Resources shown for OST include time                    3%
       spent performing audits of the DOT
       Consolidated Financial Statements (which
                                                                                           FHWA
       includes all Operating Administrations),                                             16%
       Congressional Earmarks within DOT              OST
       Programs, Stranded Airline Passenger           25%
       Review, and the Federal Information
       Security Management Act Review.
­•­	   Resources shown for FRA include time                                                        PHMSA
                                                                                                     1%
       spent performing audits of the National
       Railroad Passenger Corporation.
                                                                                                    FTA
•­	    There were no resources expended on                                                          5%
       the Maritime Administration, National
       Transportation Safety Board, St. Lawrence                                                   OTHER
       Seaway Development Corporation, and                                                          0%
       Surface Transportation Board during the
       reporting period.                            FMCSA
•­	    Resources shown as “Other” were               9%
       expended on the National Sampling
       Project for Single Audits and totaled less                                            FAA
       than 1 percent.                                                                       36%




Required Statements for Semiannual Report

The Inspector General Act requires the Semiannual Report to carry explanations if, during the reporting
period, departmental management significantly revised management decisions stemming from an
audit. OIG follows up on audits reported in earlier semiannual reports. During this reporting period,
departmental management did not report any significant revisions to management decisions.

The Act also requires descriptions of any significant decisions that departmental management made
regarding an audit with which OIG disagrees. When the reporting period closed, there were no such
significant decisions with which OIG disagreed.


		                                                                                      Charts & Tables	 71
Investigations
Judicial and Administrative Actions				
April 1 – September 30, 2007


                             Employee Terminations                                      3
                             Employee Suspensions                                       2
                             Employee Reprimands                                        4
                             Employee Resignations/Retirements                          4
                             Employee Counseling                                        4
                             Debarments/Suspensions                                    28
                             Decertified - State                                       15
                             License/certificate/permit suspended/revoked/
                             terminated                                                 3


                             Indictments                                               54
                             Convictions                                               64
                             Years Sentenced                                           80
                             Years Probation                                          111
                             Years Supervised Release                                  59
                             Hours of Community Service                              4950
                                                  Financial Impact
	                            Fines:                                            $10,754,198
                             Restitution/Civil Judgments:                      $73,357,544
                             Federal Recoveries:                               $30,317,616
                             Administrative Recoveries:                         $1,652,498
                             State Recoveries                                   $6,229,324
                             Total                                           $122,311,180




72	 Semiannual Report to Congress
Profile of All Pending Investigations as of September 30, 2007
                                                                                  Types of Cases
                                                         Number      Contract/    Employee    Aviation   Motor       HazMat    Other
                                                         of Cases   Grant Fraud   Integrity    Safety    Carrier
                                                                                                         Safety


Federal Aviation Administration                            169          41           29         85         0            7         7
Federal Highway Administration                             157         141           6          0          0            0        10
Federal Railroad Administration                             10           2           2          0          0            5         1
Federal Transit Administration                             25          25            0          0          0            0         0
Maritime Administration                                      5           1           3          0          0            1         0
Federal Motor Carrier Safety Administration                66            3           7          0          37          12         7
Office of the Secretary                                     19           3           11         0          0            0         5
Pipeline and Hazardous Materials Safety Administration      18           0           1          0          0           17         0
Research and Innovative Technologies Administration          2           2           0          0          0            0         0
National Highway Traffic Safety Administration               8           3           1          0          1            0         3
National Transportation Safety Board                         1           0           1          0          0            0         0

Totals                                                    480         221           61          85        38           42       33

Percent of Total:                                        100%         46%          13%        18%        8%           9%        7%


Application of Investigative Project Hours by Priority Area
April 1 – September 30, 2007
                                                                       OTHER
                                                                        10%
                                          EMPLOYEE INTEGRITY
                                                                                      AVIATION SAFETY
                                                 14%
                                                                                            13%




                        MOTOR CARRIER SAFETY
                              & FRAUD
                                 7%


                                HAZMAT SAFETY
                                     5%


                                                                                               CONTRACT/GRANT FRAUD
                                                                                                       51%



		                                                                                                                 Charts & Tables	 73
Application of Investigative Project Hours by Operating Administration
April 1 – September 30, 2007


                                            NHTSA        OST
                                             3%          9%
                                    FMCSA
                                     11%




                                                                                  FAA
                                                                                  28%




                        FHWA
                         37%
                                                                          OTHER
                                                                           2%
                                                                    FRA
                                                                    3%
                                                          FTA
                                                          7%




During the 6-month period covered by this report, 80 cases were opened and 79 were closed, leaving
a pending caseload of 480. In addition, 88 cases were referred for prosecution, 72 were accepted for
prosecution, and 37 were declined. As of September 30, 2007, 27 cases were pending before prosecutors.




74	 Semiannual Report to Congress
                                Mission And Organization

The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95–452). The Act sets several goals for OIG:

        n	 To conduct or supervise objective audits and investigations of the Department’s programs
           and operations;

        n	 To promote economy, effectiveness, and efficiency within the Department;

        n	 To prevent and detect fraud, waste, and abuse in the Department’s programs;

        n	 To review existing and proposed laws or regulations affecting the Department and make
           recommendations about them;

        n	 To keep the Secretary of Transportation and Congress fully informed about problems in
           departmental programs and operations.

                               OIG FY 2007 PROGRAM-LEVEL RESOURCES
                                        Total: $71,051,054
OIG is divided into two major
units and four support units.                                              $10,457,365
The major units are the Office
of the Principal Assistant
Inspector General for Auditing
and Evaluation and the Office
of Assistant Inspector General                   $4,668,012
for Investigations. Each has
headquarters staff and field staff.              $2,445,053
The support units are the
Office of Legal, Legislative and                 $2,287,783
External Affairs; the Office of
Human Resources; the Office of
Financial, Administrative and                      $930,213
Information Technology
Management; and the Office of
Quality Assurance Reviews/                      $50,262,628
Internal Affairs.
		                                                                           Mission and Organization	 75
                                                                                  U.S. Department of Transportation
                                                                                     Office of Inspector General


                                                                                              Inspector General




76	 Semiannual Report to Congress
                                                                                                   Deputy
                                                                                              Inspector General




                                                                                               Principal Assistant                             Assistant Inspector General
                                      Assistant Inspector                                      Inspector General
                                    General for Investigations                                                                                  for Legal, Legislative, and
                                                                                           for Auditing & Evaluation                                 External Affairs




                                                                                             Assistant Inspector                                Assistant Inspector
                                       Executive Director          Assistant Inspector                                  Assistant Inspector                                     Assistant Inspector
                                                                                           General for Financial &                               General for Rail &
                                        Washington D.C.           General for Aviation &                               General for Highway &                                  General for Acquisition &
                                                                                           Information Technology                               Maritime Audits and
                                        Field Operations         Special Program Audits                                   Transit Audits                                        Procurement Audits
                                                                                                   Audits                                       Economic Analysis




                                                                    Deputy Assistant                                      Deputy Assistant
                                                                   Inspector General                                     Inspector General
                                                                     for Aviation &                                        for Highway &
                                                                 Special Program Audits                                    Transit Audits
                                                      CONTACTS

     Inspector General
     Calvin L. Scovel III............................................................................... (202) 366-1959

     Deputy Inspector General
     Theodore P. Alves................................................................................ (202) 366-6767

     Assistant Inspector General for Legal, Legislative, and External Affairs
     Brian A. Dettelbach.............................................................................. (202) 366-8751

     Principal Assistant Inspector General for Auditing and Evaluation
     David A. Dobbs.................................................................................... (202) 366-1427

     Assistant Inspector General for Investigations
     Charles H. Lee, Jr.................................................................................. (202) 366-1967

     Executive Director for Washington Investigative Operations
     Rick Beitel............................................................................................. (202) 366-1972

     Assistant Inspector General for Aviation and Special Program Audits
     Lou Dixon.............................................................................................(202) 366-6238

     Deputy Assistant Inspector General for Aviation and Special Program Audits
     Matt Hampton...................................................................................... (202) 366-1987

     Assistant Inspector General for Financial and Information Technology Audits
     Rebecca C. Leng.................................................................................... (202) 366-1488

     Assistant Inspector General for Highway and Transit Audits
     Rebecca Batts........................................................................................(202) 366-5630

     Assistant Inspector General for Rail and Maritime Audits and Economic Analysis
     David Tornquist....................................................................................(202) 366-9970

     Assistant Inspector General for Acquisition and Procurement Audits
     Mark Zabarsky......................................................................................(202) 366-2001




		                                                                                                                             Contacts	 77
                                            ABBREVIATIONS

            AF-OSI 	                Air Force Office of Special Investigations
            AICPA 	                 American Institute of Certified Public Accountants
            AIP	                    Airport Improvement Program
            AIR-21	                 Aviation Investment and Reform Act for the
            	                       21st Century
            AAAE	                   American Association of Airport Executives
            ASAP	                   Aviation Safety Action Programs
            ASDE-X	                 Airport Surface Detection Equipment-Model X
            ATC	                    Air Traffic Control
            ATO	                    Air Traffic Organization
            ATOS	                   Air Transportation Oversight System
            BTS	                    Bureau of Transportation Statistics
            CDLIS 	                 Commercial Drivers License Information System
            CDL 	                   Commercial Drivers License
            CFO 	                   Chief Financial Officer
            CID	                    Criminal Investigations Division
            CIO	                    Chief Information Officer
            DBE	                    Disadvantaged Business Enterprise
            DCAA	                   Defense Contract Audit Agency
            DCIS	                   Defense Criminal Investigative Service
            DHS 	                   Department of Homeland Security
            DOJ	                    Department of Justice
            DOT	                    Department of Transportation
            EPA	                    Environmental Protection Agency
            FAA	                    Federal Aviation Administration
            FBI	                    Federal Bureau of Investigation
            FHWA	                   Federal Highway Administration
            FISMA	                  Federal Information Security Management Act
            FMCSA	                  Federal Motor Carrier Safety Administration
            FRA	                    Federal Railroad Administration
            FTA	                    Federal Transit Administration
            FTI	                    FAA Telecommunications Infrastructure
            FY	                     Fiscal Year
            GAO	                    Government Accountability Office
            HAZMAT	                 Hazardous Material
            HTF	                    Highway Trust Fund
            IG	                     Inspector General
            IRB	                    Investment Review Board

78	 Semiannual Report to Congress
     IRS	          Internal Revenue Service
     IT	           Information Technology
     JPDO	         Joint Planning and Development Office
     MARAD	        Maritime Administration
     MCSIA	        Motor Carrier Safety Improvement Act
     MOU	          Memorandum of Understanding
     MTA	          Metropolitan Transportation Authority
     NAFTA	        North American Free Trade Agreement
     NATCA	        National Air Traffic Controllers Association
     NAS	          National Airspace System
     NCIS	         Naval Criminal Investigative Service
     NDR	          National Driver Register
     NHTSA	        National Highway Traffic Safety Administration
     NTSB	         National Transportation Safety Board
     OA	           Operating Administration
     OCIO	         Office of Chief Information Office
     OIG	          Office of Inspector General
     OMB	          Office of Management and Budget
     OPM	          Office of Personnel Management
     OSI	          Office of Special Investigations
     OST	          Office of the Secretary of Transportation
     PCIE	         President’s Council on Integrity and Efficiency
     PHMSA	        Pipeline and Hazardous Materials Safety Administration
     QCR	          Quality Control Review
     RITA	         Research and Innovative Technology Administration
     RSPA	         Research and Special Programs Administration
     SAFETEA-LU	   Safe, Accountable, Flexible, Efficient Transportation
     	             Equity Act: A Legacy for Users
     SAS-70	       Statement on Auditing Standards Number 70
     SafeStat	     Safety Status Measurement System
     SLSDC	        St. Lawrence Seaway Development Corporation
     TEA-21	       Transportation Equity Act for the 21st Century




		                                                                          Abbreviations	 79
